<html>
<title> - THE RIGHT TO CHOOSE: PROTECTING UNION WORKERS FROM FORCED POLITICAL CONTRIBUTIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  THE RIGHT TO CHOOSE: PROTECTING UNION WORKERS FROM FORCED POLITICAL 

                             CONTRIBUTIONS

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 8, 2012

                               __________

                           Serial No. 112-128

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
00-000                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 8, 2012.................................     1
Statement of:
    Waites, Claire, employee of Baldwin County Public Schools, 
      Alabama, and 2004 and 2008 National Education Association 
      Representative Assembly Delegate; Terry Bowman, UAW member 
      and president of Union Conservatives, Inc.; Sally Coomer, 
      Seattle, WA, area home care provider; and Kenneth G. Dau-
      Schmidt, JD., Ph.D., Willard and Margaret Carr professor of 
      labor and management law, Indiana University, Maurer School 
      of Law.....................................................     8
        Bowman, Terry............................................    42
        Coomer, Sally............................................    14
        Dau-Schmidt, Kenneth G...................................    30
        Waites, Claire...........................................     8
Letters, statements, etc., submitted for the record by:
    Bowman, Terry, UAW member and president of Union 
      Conservatives, Inc., prepared statement of.................    44
    Coomer, Sally, Seattle, WA, area home care provider, prepared 
      statement of...............................................    16
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland:
        Information concerning AT&T..............................    64
        Prepared statement of....................................     5
    Dau-Schmidt, Kenneth G., JD., Ph.D., Willard and Margaret 
      Carr professor of labor and management law, Indiana 
      University, Maurer School of Law, prepared statement of....    32
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, staff report..........................   103
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, information concerning Labor Day speech 
      at Liberty State Park......................................    75
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................   121
    Waites, Claire, employee of Baldwin County Public Schools, 
      Alabama, and 2004 and 2008 National Education Association 
      Representative Assembly Delegate, prepared statement of....    10


  THE RIGHT TO CHOOSE: PROTECTING UNION WORKERS FROM FORCED POLITICAL 
                             CONTRIBUTIONS

                              ----------                              


                      WEDNESDAY, FEBRUARY 8, 2012

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, McHenry, Jordan, Chaffetz, 
Walberg, Lankford, Gosar, Labrador, DesJarlais, Walsh, Gowdy, 
Ross, Guinta, Kelly, Cummings, Towns, Norton, Kucinich, 
Tierney, Clay, Lynch, Connolly, Quigley, Davis, Welch, Murphy.
    Staff present: Kurt Bardella, senior policy advisor; 
Michael R. Bebeau and Gwen D'Luzansky, assistant clerks; Robert 
Borden, general counsel; Will L. Boyington, staff assistant; 
Molly Boyl, parliamentarian; Lawrence J. Brady, staff director; 
David Brewer, counsel; John Cuaderes, deputy staff director; 
Linda Good, chief clerk; Tyler Grimm and Michael Whatley, 
professional staff members; Frederick Hill, director of 
communications and senior policy advisor; Christopher Hixon, 
deputy chief counsel, oversight; Justin LoFranco, deputy 
director of digital strategy; Mark D. Marin, director of 
oversight; Christine Martin, counsel; Kristina M. Moore, senior 
counsel; Beverly Britton Fraser, Claire Coleman, Yvette 
Cravins, and Brian Quinn, minority counsels; Lisa Cody, 
minority investigator; Kevin Corbin, minority deputy clerk; 
Ashley Etienne, minority director of communications; Susanne 
Sachsman Grooms, minority chief counsel; Carla Hultberg, 
minority chief clerk; and Jason Powell, minority senior 
counsel.
    Chairman Issa. The committee will come to order.
    We exist to secure two fundamental principles. First, 
Americans have a right to know that the money Washington takes 
from them is well spent. And second, Americans deserve an 
effective, efficient government that works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers, because taxpayers 
have a right to know what they get from their government.
    It is our responsibility to work tirelessly in partnership 
with citizen watchdogs to deliver the facts to the American 
people and bring genuine reform to the Federal bureaucracy. 
This is our mission.
    I will now recognize myself for an opening statement.
    Individual freedom and personal choice are both 
cornerstones of our democracy and at the heart of unionization 
in America. However, the roles of unions have evolved from 
being protectorates of workers to being a powerful force in the 
political process. In America, what things become they have a 
right to become.
    However, during the 2010 election cycle, unions spent more 
than $1.1 billion to finance political and lobbying activities. 
The House Committee on Oversight and Government Reform's focus 
on these issue will not be on the examination of the validity 
of unions or the right to exist, but rather, an effort to 
ensure that the political activities of unions does not 
infringe on individual rights and freedoms of its workers. We 
are going to examine in a series of hearings the process by 
which union dues are collected and how transparent they are and 
how the money is spent.
    I would like to thank our witnesses today for having the 
courage to stand up in public and share their stories with us 
and the American people. Union spending transparency, this is 
not a unique word to be said in this committee. Government 
transparency, bank transparency, privacy issues and knowing 
when or how your personal information is being used, these are 
all part of transparency in government, a cornerstone of this 
committee.
    So today, as we look at recent court decisions that have 
lifted limitations on the use of dues for political spending, 
and I might add, lifted the limits on corporations in political 
spending, many workers are intentionally left unaware of their 
rights, and in some cases are subject to campaigns of threats 
and extortion.
    Since taking office in 2009, the Obama administration has 
acted to reduce union transparency and reporting requirements, 
particularly on what is called the LM2. Right now, union 
workers do not know how much of their money is being spent or 
funneled to Super PACs, like the one President Obama expressed 
support for yesterday.
    Under Citizens United, all of this is legal, under Citizens 
United, all of these activities are completely constitutional, 
and likely not to change in the foreseeable future. But today, 
workers don't have a say. There is no reporting requirement 
that provides workers with transparency we believe they 
deserve. In fact, just 2 weeks after the Supreme Court ruling 
that paved the way for Super PACs, the Obama administration 
began scrapping some of the disclosure requirements, 
particularly on international unions.
    In addition to weakening the reporting requirements, the 
Obama administration quietly scaled back on the Department of 
Labor's ability to conduct effective financial oversight of 
labor organizations, and in fact, disbanded the Division of 
International Union Audits.
    Although I can reach a conclusion that this is a union-
friendly administration, that in fact this was what the union 
would want, and the like, I won't reach that conclusion here 
today. I will only reach a conclusion that this committee, in 
order to further transparency, asks, why wouldn't we reinstate 
greater reporting? Why wouldn't we ensure that money taken 
involuntarily from union members is in fact money that they 
have a right to know?
    Additionally, in the coming weeks and months, this 
committee will look at the other side. I pledge today to look 
at corporate contributions to Super PACs.
    Citizens United is now the law of the land. We don't 
dispute that. But Congress has a role particularly in ensuring 
greater transparency. We believe that nothing will be outside 
the Constitution in ensuring that the money be tracked in a way 
in which there is accountability for who is in fact providing 
great influence to the outcome of this coming year's election. 
But let's all realize that in the last few weeks, we have seen 
Super PACs play a huge role in the outcome of primaries. 
Whether you are for one candidate, the other, or none of them, 
we know Super PACs are here to stay. We know that they are 
receiving large amounts of money.
    And today, we are going to ask a more narrow question, 
which is, do workers in unionized organizations have a right to 
know more than they currently know about when it is being 
taken, what it is being used for and whether in fact it has to 
be taken from them.
    As the ranking member is recognized, I have purchased 
copies of a book that I think is very noteworthy for all of us 
through all this series of hearings. And I recommend it to all 
of you. It really outlines the last time, I think, that the 
Senate did serious work in looking at unions, not from an anti-
union standpoint, but from in fact a friend of the unionized 
workers standpoint. Hopefully it will be taken to heart by both 
sides of the aisle.
    With that, I recognize the ranking member for an opening 
statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. And thank 
you for the book.
    If you read today's hearing title, you would think that it 
is about protecting union workers. Unfortunately, the real 
purpose of tody's hearing is to continue the majority's 
unprecedented year-long attack against millions of middle-class 
American workers and their right to bargain collectively for 
their better wages and working conditions.
    The majority's premise for today's hearing is that we need 
to conduct aggressive oversight to prevent unions from using 
the dues of their members to fund political activities. The 
majority expresses great concern and urgency over the prospect 
that unions are using the dues of their members to advocate on 
behalf of certain candidates or causes.
    Let's start with the facts. First, Federal law already 
makes it clear that employment may not be conditioned on an 
employee's willingness to fund a union's political activities. 
In addition, unions may not force their members to pay for 
political activities they disagree with. Unions are already 
subject to extensive administrative procedures and reporting 
requirements to ensure they comply with these laws.
    In contrast, after the Supreme Court's decision in Citizens 
United, private corporations are free to spend limitless 
amounts of money influencing political decisions. Corporate 
money is flooding into American politics big-time. According to 
statistics from the Center for Responsive Politics, the U.S. 
Chamber of Commerce, which is funded by corporate donations, 
spent more than $32 million on electioneering communications 
during the 2010 election season, about 94 percent of which was 
on behalf of Republican candidates. This unlimited corporate 
money bankrolls political action committees that will inject 
more than $200 million into the 2012 races, according to 
estimates.
    As the Wall Street Journal observed, these corporate funds 
constitute possibly the largest force in the 2012 campaign 
aside from the Presidential candidates themselves and political 
parties. These corporations are not subject to any of the same 
rules that unions face with respect to obtaining shareholder 
consent or input on political spending. Even if shareholders 
object to political spending by a corporation, they have no 
comparable legal rights to opt out of financing corporations' 
political activities or to seek reimbursement for these funds.
    Our colleagues on the other side of the aisle like to use 
rhetoric that sounds like they have the interests of workers in 
mind. They talk about the right to work, States and paycheck 
protection. But their rhetoric does not match the reality. 
These proposals hurt millions of American workers by driving 
down wages, eliminating benefits and putting more money in the 
pockets of corporate execs.
    According to an analysis by the Economic Policy Institute, 
right to work laws lower the average income to workers by 
$1,500 a year and significantly decrease the ability of workers 
to obtain health insurance or pensions through their jobs. This 
hearing is not about protecting the rights of workers. It is 
about further silencing the voice of unions across this country 
that represent millions of American workers while at the same 
time encouraging private corporations to spend limitless 
amounts of money without transparency or accountability. If the 
majority were really interested in giving the American citizens 
a greater voice in how their money is spent on political 
activities, it would immediately call hearings on the 
proliferation of corporate spending this election season after 
the Supreme Court's decision in Citizens United.
    I am very pleased to hear the chairman say that we will 
begin to at some point look at the Citizens United and the 
ramifications of it. That is very, very good news. If the 
committee did this on an even-handed and balanced basis, that 
is something I would strongly support.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] 64029.001

[GRAPHIC] [TIFF OMITTED] 64029.002

    Chairman Issa. I thank the gentleman. Would the gentleman 
yield before he yields back?
    Mr. Cummings. Certainly.
    Chairman Issa. I made that pledge for a reason. The fact is 
that the unlimited dollars are, as the gentleman said in his 
opening statement, are on both sides. And although I don't 
think you can have a single panel talk about both, I know that 
your witness will in fact touch on it. And whether or not it is 
a minority day or in fact it is the second in the series, it is 
my intention to look at the growing effect of Super PACs. I 
want to make sure that I do each of them in a way that talks 
about the transparency.
    I would say to the gentleman, the one thing that I know is 
that you and I can't un-ring the bell of the Supreme Court. So 
the intention of this committee is to concentrate on 
legislation after effective hearings that mandate in law 
greater transparency. And I will only offer legislation after 
we have looked at all the elements that feed dollars into the 
process. I thank the gentleman for his opening statement.
    Mr. Cummings. Thank you very much.
    Chairman Issa. With that, all Members will have 5 
legislative days to include not only their opening statements 
but other insertions for the record and extraneous information.
    With that, we now recognize our first and only panel of 
witnesses. First we go to Ms. Claire Waites. She is a school 
teacher in Alabama and a member of the National Education 
Association. Mr. Terry Bowman is an auto worker in Ypsilanti, 
MI, close to my alma mater, and a member of the United Auto 
Workers. Ms. Sally Coomer is a home health care worker in 
Duvall, WA, and is a member of the SEIU, or Service Employees 
International Union. Last, Dr. Kenneth G. Dau-Schmidt is a 
Willard and Margaret Carr professor of labor and employment law 
at the Maurer School of Law at Indiana University in 
Bloomington, IN.
    And with that, if you would all rise, pursuant to the rules 
of the committee, all witnesses are to be sworn. Please raise 
your right hands.
    [Witnesses sworn.]
    Chairman Issa. Let the record respond all witnesses 
answered in the affirmative. Please have a seat.
    It is our practice to go down the row. It is committee 
practice to have opening statements be 5 minutes. I understand 
all of you prepared roughly 5 minutes. Your entire opening 
statements will be placed in the record completely. So you need 
not read verbatim from them, if you choose not to. The only 
thing I will say is that as we get to 5 minutes, and you will 
see the indication in front of you, you will hear a quiet 
tapping. Please know that that is an opportunity to sum up, if 
you haven't already.
    Thank you very much. With that, we recognize Ms. Waites.

STATEMENTS OF CLAIRE WAITES, EMPLOYEE OF BALDWIN COUNTY PUBLIC 
    SCHOOLS, ALABAMA, AND 2004 AND 2008 NATIONAL EDUCATION 
ASSOCIATION REPRESENTATIVE ASSEMBLY DELEGATE; TERRY BOWMAN, UAW 
   MEMBER AND PRESIDENT OF UNION CONSERVATIVES, INC.; SALLY 
 COOMER, SEATTLE, WA, AREA HOME CARE PROVIDER; AND KENNETH G. 
DAU-SCHMIDT, JD., PH.D., WILLARD AND MARGARET CARR PROFESSOR OF 
LABOR AND MANAGEMENT LAW, INDIANA UNIVERSITY, MAURER SCHOOL OF 
                              LAW

                   STATEMENT OF CLAIRE WAITES

    Ms. Waites. I would like to thank Chairman Issa, Ranking 
Member Cummings and the members of the committee for allowing 
me to be present today to tell my story. My name is Claire 
Waites, and I am a 28-year veteran teacher in Baldwin County 
Public School System in Baldwin County, Alabama.
    I am currently a member in good standing of Baldwin County 
Education Association, which is affiliated with the Alabama 
Education Association and the National Education Association.
    I would like to share with you my experiences with the NEA 
Representative Assembly in the years of 2004 and 2008 of which 
I attended as a delegate. I would like to focus on NEA's Fund 
for Children and Public Education and how the name itself leads 
one to believe it is a charitable fund to benefit children, 
when in fact it is a political action fund to benefit the 
candidates of NEA's choice.
    In 2004, prior to attending my first representative 
assembly, during a required meeting of the local BCEA, 
delegates were told by the president at the time that we were 
expected to donate to the NEA Fund for Children and Public 
Education. We were told this contribution was non-negotiable.
    While in Washington, during the delegate assembly, all 
Alabama delegates were reminded daily to make their donation to 
the fund. Oddly enough, we were even told how to contribute. We 
must make two different payments, totaling the amount of $180. 
In the beginning, I was puzzled why the two different payments 
had to be made and neither payment was tax-deductible. I 
consoled myself by saying it was for children.
    Instead of making the contribution right away, I 
procrastinated for several days, because my travel budget was 
tight. Every morning the AEA president would name off one by 
one the counties that had already reached 100 percent. I soon 
began to fear that they would know I was the only hold-out and 
obediently donated the money with misgivings. I consoled myself 
again that it was for children. It was not until later in the 
day that I found out the true nature of the fund. It was 
announced NEA would be endorsing John Kerry for President, and 
the money from the funds that were raised would be going to his 
campaign.
    I must tell you, I felt a wave of illness come over like 
none I have ever felt before. Educators, who were supposed to 
be my people, had duped me into donating to a candidate I was 
not supporting.
    Once again, I attended the NEA representative assembly in 
2008. I was strong in my resolve that I would not make the same 
mistake twice: I would not donate to the Children's Fund. 
However, I never had the chance to show my strength. The BCEA 
president at the time made the contribution in my name from a 
fund that was given to us for travel. I was furious. I told her 
she had no right to make a political contribution in my name 
under any circumstances. She replied to me by saying it was not 
a political contribution, it was a contribution to a Children's 
Fund.
    I explained to her what I had learned about the fund in 
2004 and I did not want to contribute and I wanted the money 
back. She replied that she did not think that I was correct in 
my statement, but would have to confer with an AEA State 
leader. Still angry over the issue the next morning, I found 
the AEA president and explained the contribution was made in my 
name without my permission and I wanted the money back. She 
refused.
    On that same day, the BCEA president and I spoke again, and 
she verified that the contribution would go to the Obama 
campaign, which was another candidate I did not support. She 
now told me presumably after checking with AEA that I would not 
get my money back. She also suggested that I should not insist 
upon the contribution being returned, because the amount of the 
contribution had been included in our travel money. I told her 
I still wanted the money back. If it were returned to me, then 
I would return it to the BCEA.
    To this day, I have never received the involuntary 
contribution money back. Instead, I believe it was used to help 
elect Senator Obama, which was completely contrary to my 
wishes.
    [The prepared statement of Ms. Waites follows:]
    [GRAPHIC] [TIFF OMITTED] 64029.003
    
    [GRAPHIC] [TIFF OMITTED] 64029.004
    
    [GRAPHIC] [TIFF OMITTED] 64029.005
    
    [GRAPHIC] [TIFF OMITTED] 64029.006
    
    Chairman Issa. Thank you.
    Ms. Coomer.

                   STATEMENT OF SALLY COOMER

    Ms. Coomer. Mr. Chairman Issa, Ranking Member Cummings and 
members of the committee, thank you so much for this 
opportunity that you have given me to share my testimony 
regarding forced unionization and the dues I am required to pay 
that go toward political causes that I am opposed to.
    If it were not for the forced unionization of parents like 
me, who are merely caring for their loved ones, I would not be 
here today.
    My name is Sally Coomer and I live in Washington State, 
near the Seattle area. My husband Tom and I are the parents of 
seven children and I have been married for 30 years.
    To help you understand the unique situation regarding my 
union membership, I would first like to share with you a 
picture of my daughter, Becky. Becky is 21 years of age and 
lives with our family. As a result of a brain injury at birth, 
Becky has developmental disabilities, blindness, cerebral palsy 
and a seizure disorder. Due to Becky's multiple disabilities, 
she requires total care and support. Both my husband and I are 
committed to providing Becky with the love and care she needs 
throughout her life.
    Since age 18, Becky has qualified to receive assistance 
through the Medicaid Personal Care program. This paid service 
can be provided by a family or non-family caregiver, qualified 
through the State of Washington. In 2009, I, along with 
thousands of other parents and family members, providing 
personal Medicaid Personal Care services to our adult children, 
or related family members, were forced to leave our agency 
employment and become an SEIU union member in the individual 
provider system. As a parent provider for Becky, I had no 
choice but to comply if I wanted to continue providing care for 
her.
    I soon learned that because the State did not want to make 
all home care workers State employees, they set up a system 
where the recipient would be the employer and the caregiver the 
employee, with the Governor the employer for bargaining 
purposes only. This means that Becky was now my employer and I 
am considered her employee. This may work for the sake of 
unionization, but this s not a reality for Becky. This means 
that if she is my employer and I am her employee, as well as 
her guardian, then really I am the employer over myself.
    Becky is in no position, nor does she have the 
understanding to be an employer or fulfill the functions of an 
employer or managing me as a caregiver. I feel that she and 
many in her situation are being exploited and used as pawns to 
make it possible for there to even be a bargaining 
relationship.
    Our State has more than 42,000 unionized individual 
providers, of which about 65 to 70 percent are family members 
providing care for a loved one. Since being a forced union 
member, not only have I been subject to paying union dues, but 
as a parent provider, I have lost the ability to pay into the 
Social Security system due to the employment relationship that 
the State has set up for bargaining purposes.
    In addition, I feel like a prisoner to the union and its 
causes when I find that my union dues are going to political 
purposes of which I greatly oppose. Most recently, I received a 
notice showing that my dues were being increased to support the 
union's Political Accountability Fund, to pay for a lawsuit and 
fund a campaign and initiative that would increase training for 
union caregivers at a price tag of $80 million over 2 years. 
These types of unfunded initiatives directly impact the funding 
and direct services of the very population the individual 
provider system serves, which would include my daughter.
    The union dues I am forced to pay fund political candidates 
I do not support. They fund campaigns that support initiatives 
that have drained the budget allocated for Becky and other 
Medicaid recipients. I am tired of being hounded by mailings 
telling me how to vote and what initiatives to support, as well 
as calls asking me to go to Olympia and rally for political 
causes that I believe to be false and misleading.
    We are in a sad, sad state of affairs when as a parent, you 
are forced to be a union member and pay union dues to care for 
your own adult child with disabilities, especially knowing that 
your dues are going to political causes that are detrimental to 
the very funding that your adult child depends on. My hope 
would be, rather than divert millions of dollars in Medicaid 
funding for union dues each month, if I could ask you to try 
and put yourself in my situation as a parent. If Becky was your 
daughter and you were her voice, I am sure that you would feel 
the need to speak out against this kind of manipulation of 
Medicaid funds for the purpose of union gain. For families like 
ours, these fund are critical in making it possible for us to 
provide the long-term care that Becky needs.
    Caring for my daughter is not a job that needs union 
intervention. This is my daughter, and this is our life 
circumstance. Thank you.
    [The prepared statement of Ms. Coomer follows:]
    [GRAPHIC] [TIFF OMITTED] 64029.007
    
    [GRAPHIC] [TIFF OMITTED] 64029.008
    
    [GRAPHIC] [TIFF OMITTED] 64029.009
    
    [GRAPHIC] [TIFF OMITTED] 64029.010
    
    [GRAPHIC] [TIFF OMITTED] 64029.011
    
    [GRAPHIC] [TIFF OMITTED] 64029.012
    
    [GRAPHIC] [TIFF OMITTED] 64029.013
    
    [GRAPHIC] [TIFF OMITTED] 64029.014
    
    [GRAPHIC] [TIFF OMITTED] 64029.015
    
    [GRAPHIC] [TIFF OMITTED] 64029.016
    
    [GRAPHIC] [TIFF OMITTED] 64029.017
    
    [GRAPHIC] [TIFF OMITTED] 64029.018
    
    [GRAPHIC] [TIFF OMITTED] 64029.019
    
    [GRAPHIC] [TIFF OMITTED] 64029.020
    
    Chairman Issa. Thank you.
    Dr. Dau-Schmidt.

              STATEMENT OF KENNETH G. DAU-SCHMIDT

    Mr. Dau-Schmidt. Mr. Chairman, my name is Professor Dau-
Schmidt of Indiana University. I am part of the 9 percent that 
still has a positive view of the House, and so I am very glad 
to be here today. [Laughter.]
    But I haven't told anybody about it.
    Chairman Issa. Doctor, you are behind. It is well below 9 
percent. [Laughter.]
    Mr. Dau-Schmidt. I hope there is no record being made of my 
appearance here.
    But anyway, I do want to thank you, I genuinely want to 
thank you for appearing here today and to get a seat at the 
main table with the other witnesses. We are here today to 
discuss a very important problem in a democratic society of 
balancing the free speech rights of organizations like 
corporations and unions with the free speech rights of 
individuals associated with those organization that might 
dissent.
    The problem is how to allow corporations and unions to 
effectively communicate their legitimate concerns with their 
members and their constituents and with the public and engage 
in political activity without unfairly requiring dissenters 
within these organizations to pay a political support for views 
they oppose. This problem, of course, was brought to a head by 
the Supreme Court's surprising ruling in Citizens United that 
corporations are people, and as a result, they can spend all of 
their Corporate wealth on political campaigns, including 
supporting directly candidates.
    This surprising holding by the Court made investment in a 
corporation a political act. And government programs that 
encourage or require such investment is basically, of course, 
political activity. Although we have extensive Federal law 
protecting the right of dissenting employees to opt out of 
supporting union political activity, we have no similar law to 
allow dissenting shareholders, including employees with pension 
plans, to opt out of supporting corporate political activity. 
This asymmetry and the treatment of employees who dissent from 
union activity, employees who dissent from corporate political 
activity, is not only unfair to people who dissent to corporate 
activity, but also it is a detriment to our democratic 
government.
    As I have said, we already have an extensive body of 
Federal law to protect the rights of employees who want to 
dissent from union political activity. Under Federal law, no 
one can be required to join a union. No one can even be 
required to pay full union dues. Although in a State that 
allows the enforcement of union security agreements between 
unions and employers, an employee can be required to pay an 
agency fee to the union to cover the cost the union incurs in 
representing the employee.
    In calculating agency fees under Federal law, unions are 
only allowed to charge employees for the costs of negotiating 
and administering the collective bargaining agreement and they 
are expressly prohibited from charging them for political 
activities such as the support of particular candidates. Unions 
are also required to give dissenters a Hudson notice each year, 
containing information that adequately explains how the fee 
reduction for political activity was calculated along with an 
opportunity of at least 30 days to challenge the amount of the 
reduction.
    And finally, no dues or fees can automatically be deducted 
from the employees pay check without the employee's affirmative 
agreement, regardless of what the union or the employer agree. 
Failure on the part of the union employer to follow these 
practices can result in prosecution by the National Labor 
Relations Board or a private suit by aggrieved employees in 
either Federal court or State court.
    Some have argued, including some here today, I am sure, 
that we need more laws to protect the interests of employees 
who dissent from unions. But let me remind you of the words of 
Chief Justice Marshall in McCullough v. Maryland, ``The power 
to regulate is the power to destroy.'' And I would argue that 
further limitations to requirements on union activities will 
undermine the ability of unions to function and also interfere 
with the right of union supporters to express themselves in a 
political discourse.
    Some have argued for a Federal right to work law, that 
would prohibit union security agreements nationwide. But union 
security agreements are necessary under our Federal law to 
ensure that unions have the financial support they need to 
perform their duties. Under Federal law, not only can you not 
require someone to become a member, but unions have an 
obligation to fairly represent all people in the bargaining 
unit.
    As a result, this creates a free rider problem, where the 
union is obligated to provide services but people are not 
obligated to pay. Union security agreements, where they are 
obligated to pay by the employer to pay the agency fee, solves 
this problem and gives the union the resources it needs to 
perform its functions. You can imagine the trouble in trying to 
run a business where you had the obligation to provide services 
but nobody had an obligation to pay. It would not work.
    Some have argued in favor of paycheck protection laws that 
seek to hobble union activity and speech by requiring advance 
written authorization from all affected members and non-members 
of actions. Such laws elevate the minutest interests of 
dissenters over the interest of majority and violate the 
majority's First Amendment rights. And here I think the 
experience in Alabama is instructive in this regard. What we do 
need to do instead is to afford employees and other 
shareholders who dissent from Corporate political activity the 
same rights that are currently afforded to employees who 
dissent from union activity.
    As an employee of Indiana University, the State of Indiana 
takes 10 percent of my salary and requires that I invest it in 
a limited number of mutual funds, none of which allow a 
political opt-out. I have no information on what these 
companies are doing with my money, although I know some of them 
are doing political activity that I do not agree with. And I 
have no opportunity to either know about it or to dissent.
    I thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Dau-Schmidt follows:]
    [GRAPHIC] [TIFF OMITTED] 64029.021
    
    [GRAPHIC] [TIFF OMITTED] 64029.022
    
    [GRAPHIC] [TIFF OMITTED] 64029.023
    
    [GRAPHIC] [TIFF OMITTED] 64029.024
    
    [GRAPHIC] [TIFF OMITTED] 64029.025
    
    [GRAPHIC] [TIFF OMITTED] 64029.026
    
    [GRAPHIC] [TIFF OMITTED] 64029.027
    
    [GRAPHIC] [TIFF OMITTED] 64029.028
    
    [GRAPHIC] [TIFF OMITTED] 64029.029
    
    [GRAPHIC] [TIFF OMITTED] 64029.030
    
    Chairman Issa. Thank you, Doctor.
    Mr. Bowman.

                   STATEMENT OF TERRY BOWMAN

    Mr. Bowman. Chairman Issa, Ranking Member Cummings and 
members of this committee, first of all, thank you for giving 
me the privilege of testifying before you today regarding the 
wrongful use of union dues for political spending by labor 
union officials.
    For over 15 years now, I have been a UAW member, and I have 
personally observed the intimidating political activities of my 
union. I am pro-union, but in the context of what unions were 
originally created to do, and that is to represent their 
employees in the realms of the workplace.
    I am also the president and founder of a non-profit 
organization called Union Conservatives. The entire reason I 
felt the need to start this organization was because my union 
was using my union dues to push a political agenda that I 
oppose.
    Now, since I started Union Conservatives, I have heard the 
stories of hundreds of union workers who are also tired and fed 
up with the political activities of their own unions. Up to 40 
percent or more of union workers actually vote for Republicans. 
That means almost 6 million union workers in the United States 
alone feel harassed and persecuted because of the political 
activities of their union officials.
    So to protect workers from the constant political abuses of 
their dues by their union officials, there really are only two 
options. The first option would be to require a combination of 
audits and Beck rights. A non-partisan third party would audit 
all spending by the unions, and all subjective educational 
spending or anything regarding any political activity must be 
omitted from the agency fee and make the Beck decision the 
default position for all union workers.
    But the second choice is really the best and only clear way 
to ensure that the rights of all union workers are protected, 
and that is to pass a national right to work law. This would 
ensure that only those workers who agree with the political 
activities of their unions are paying for it, and those who 
find the far left political activities of their unions to be 
despicable would not be forced, as a condition of employment, 
to financially support those activities.
    So let's take a look at the first option. The Supreme Court 
decision called the Communication Workers of America v. Beck 
acknowledged that unions do not have the right to use for 
political purposes the dues of workers or non-members who 
object to those political activities. However, union workers 
must first resign their membership and then they are frequently 
the victims of humiliation and harassment on the job for 
resigning their union membership. Because this fear stops the 
union member from exercising their rights.
    Second, unions still use the agency fee as a means to spend 
money on political purposes. And it happens all the time.
    The first option, making each worker a Beck rights worker 
as a default position, would be a step in the right direction. 
But the agency fee still contains many activities that are 
deemed extremely offensive by a large number of union workers. 
And those union workers fear the reprisal that comes with 
exercising those rights.
    The only effective answer to this violation of workers' 
political freedom is to eliminate compulsory union language 
from the National Labor Relations Act and the Railway Labor 
Act. This would in essence establish a national right to work 
act. Only then will union officials be held answerable and 
accountable to the workers for their offensive and radical 
left-wing political actions. Only then will union bosses have 
to compete for a worker's loyalty. Competition instead of 
compulsion always makes an organization stronger.
    I ask you to grant to the rest of the American workers what 
President John F. Kennedy granted to the Federal work force in 
Executive Order 10988, dated January 17, 1962: ``Employees of 
the Federal Government shall have and shall be protected in the 
exercise of the right, freely and without fear of penalty or 
reprisal, to form, join and assist any employee organization or 
to refrain from any such activity.''
    I also ask you to grant to the millions of union workers 
their First Amendment right of freedom of association or 
conversely, the freedom to not associate. The U.S. Government 
has given labor unions the ability to trump an individual's 
First Amendment rights and force the seizure of an individual's 
personal property, their wages, for simply exercising their 
pursuit of happiness by applying for a job. Because forced 
solidarity is no solidarity at all. Even prisoners in a chain 
gang have solidarity. Forced solidarity is nothing more than 
being a prisoner in chains. Only through having a complete 
volunteer union is there real and true solidarity.
    Finally, let me quote Founding Father Thomas Jefferson: 
``To compel a man to furnish contributions of money for the 
propagation of opinions which he disbelieves is sinful and 
tyrannical.'' Thank you.
    [The prepared statement of Mr. Bowman follows:]
    [GRAPHIC] [TIFF OMITTED] 64029.031
    
    [GRAPHIC] [TIFF OMITTED] 64029.032
    
    [GRAPHIC] [TIFF OMITTED] 64029.033
    
    [GRAPHIC] [TIFF OMITTED] 64029.034
    
    [GRAPHIC] [TIFF OMITTED] 64029.035
    
    [GRAPHIC] [TIFF OMITTED] 64029.036
    
    [GRAPHIC] [TIFF OMITTED] 64029.037
    
    [GRAPHIC] [TIFF OMITTED] 64029.038
    
    [GRAPHIC] [TIFF OMITTED] 64029.039
    
    [GRAPHIC] [TIFF OMITTED] 64029.040
    
    [GRAPHIC] [TIFF OMITTED] 64029.041
    
    [GRAPHIC] [TIFF OMITTED] 64029.042
    
    [GRAPHIC] [TIFF OMITTED] 64029.043
    
    [GRAPHIC] [TIFF OMITTED] 64029.044
    
    [GRAPHIC] [TIFF OMITTED] 64029.045
    
    Chairman Issa. I thank the gentleman.
    I will now recognize myself for 5 minutes. Mr. Bowman, you 
took away one of my lines with the Jefferson one.
    Mr. Bowman. I apologize.
    Chairman Issa. No, it was well said.
    Doctor, I am going to start with you, because I just want 
to understand one thing. If what you say is true in 
practicality as it is in law, then there should be a large 
difference between the agency amount taken from our witnesses 
if they are under that and union dues, presuming that a large 
amount is spent on, directly or indirectly, political activity. 
Is that correct, that there should be a large amount?
    If a large amount of the union's activities is non-PAC 
activity, particularly, it is spent on political activities, 
including asking for more money, asking for people to go to 
rallies, all of that should be reduced by the amount that the 
free rider, if you want to use that term, pays to simply have 
the other negotiations. Is that correct? Very simply, the 
political activity money is to be only spent from union dues 
and not from the agency under the law. That's what you said in 
your opening statement. Do you stand by that?
    Mr. Dau-Schmidt. Yes.
    Chairman Issa. Ms. Coomer, have you looked into the 
difference between what would happen if you asserted your Beck 
rights and simply, instead of paying full dues, only paid for 
the portion that was negotiated to help your employer, I guess 
it would be having your employer treat you more fairly, your 
daughter, right?
    Ms. Coomer. Yes.
    Chairman Issa. Have you looked into that?
    Ms. Coomer. I have.
    Chairman Issa. And by the way, I am assuming that your 
daughter is a good employer, even without the union.
    Ms. Coomer. Very cooperative.
    I have, and the reality is that according to the bargaining 
agreement, that the dues that I pay, the only way that I can 
not pay dues, actually the amount that I pay is the same. It is 
not like there is a reduced fee, I have to belong to a 
religious organization and prove that I belong to a religious 
organization that prohibits me. And then I am required, 
according to the bargaining agreement, to choose a non-
religious organization and the union has to approve of that. 
And when I choose it, and if they approve, then that equal 
amount goes, I can then donate that to that organization. But 
it has to be upon the approval of the union.
    So in the end, I am still paying the same amount of money. 
And then every quarter, I have to show that I have taken that 
money and done that.
    Chairman Issa. Okay, I am going to go to each of the 
witnesses for their experiences, before I go back to the 
Doctor.
    So your experience is, it is the exact same amount of 
money, there is no reduction to you or, in this case, to the 
money you use to care for your daughter, there's no reduction 
if you try to opt out of the union, even though the Beck 
decision says there should be?
    Ms. Coomer. This is what I have been informed of by the 
union.
    Chairman Issa. Ms. Waites, have you found something 
similar? What has been your experience?
    Ms. Waites. To opt out of the union?
    Chairman Issa. Yes, ma'am.
    Ms. Waites. You are not forced to become a member of the 
union in Alabama. But most teachers are members of the union, 
because that is the only place we can get liability insurance. 
Alabama is a right to work State, so we don't have collective 
bargaining power.
    Chairman Issa. So what you are saying is that you would 
save money in your particular case, if you opted out of the 
union. But one of the most important parts, what you need, the 
insurance, is only available in Alabama? Is that the reason you 
can't get out?
    Ms. Waites. The insurance comes from being a part of AEA 
and NEA, the liability insurance.
    Chairman Issa. And the State of Alabama doesn't have an 
alternate program, so that you can choose to not be a union 
member?
    Ms. Waites. Not yet. Not at this time.
    Chairman Issa. Okay, so in your case, it is not the dues, 
per se, it is something else that is essentially locked in by 
the union exclusivity?
    Ms. Waites. Yes, sir.
    Chairman Issa. Thank you. Mr. Bowman, what has been your 
experience? I went to school down in Adrian, so I look north 
and there you are. What has been your experience in the Ann 
Arbor-Ypsilanti area?
    Mr. Bowman. Well, I have not exercised my Beck rights.
    Chairman Issa. You are a very proud union member, as I 
understand.
    Mr. Bowman. Yes. I want to maintain my union membership and 
work within the union to get some of these what I would call 
offenses changed. So I don't know the exact percentage of what 
the, personally I don't know. I have been told by many members 
that the agency fee tends to be anywhere from 90 percent on up 
of what regular union dues are. I think that is a fair 
assessment.
    Chairman Issa. Thank you.
    Doctor, my original assertion does not appear to fit at all 
with Mr. Bowman, who says it is 90 percent, and Ms. Coomer, who 
says it is identical, the total amount out of pocket, or the 
amount denied her ability to take care of her adult child is 
the same. How do you answer that in light of your answer in the 
Beck decision?
    Mr. Dau-Schmidt. It would be hard to comment on particular 
situations.
    Chairman Issa. Well, let's do something. Let me close with 
a question and then you can have as much time as the ranking 
member will let us have. Shouldn't there be transparency so we 
can determine what the appropriate number would be? Shouldn't 
we know how much is being spent on politics versus other stuff 
in light of the Beck decision?
    Mr. Dau-Schmidt. I think there should be transparency, and 
there is transparency. Actually there is a good study by 
Masters, Gibney and Zagenczyk, called Worker Pay Protection, 
Implications for Labor's Political Spending and Voice, 
published in Industrial Relations. And you can make this part 
of the record.
    It is hard to respond to anecdotal arguments about 
particular cases. But at least, they looked at this across all 
labor organizations and across major international unions. What 
they found was that for all labor organizations, political 
spending was only 4.27 percent of the money that was collected.
    Chairman Issa. Okay, but then you have given me an answer. 
And I am sure the ranking member would agree with you. But one 
of the problems we have is that it is hard for us to believe 
that it is in fact only 4 percent, with the experiences of how 
active they are.
    But having said that, the ranking member, without 
objection, will be given an additional minute. The gentleman is 
recognized.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Professor, political action committees, with regard to 
unions, what role do they play? And with regard to funds.
    Mr. Dau-Schmidt. Before Citizens United, neither unions nor 
corporations were allowed to spend general funds in support of 
particular political candidates. And as a result, they would 
set up private political action committees, or voluntary 
political action committees, where they would solicit funds 
from their members or from the public at large. And you see 
this, both corporations, you would see these political action 
committees where all the managers would donate the maximum 
amount, and you would see this in unions, where members would 
donate money toward political action.
    Mr. Cummings. Now, is that voluntary?
    Mr. Dau-Schmidt. Yes, that is completely voluntary.
    Mr. Cummings. And is that separate, then, from what, as 
Chairman Issa was just talking about, as far as dues are 
concerned?
    Mr. Dau-Schmidt. Yes.
    Mr. Cummings. Those are two separate things?
    Mr. Dau-Schmidt. Yes.
    Mr. Cummings. All right. Go ahead.
    Mr. Dau-Schmidt. Well, and they still, corporations and 
unions still maintain, even after Citizens United, where they 
are not actually required to any more, they still maintain 
these separate political action committees, because there is 
less regulation of them, right? You don't have to explain to 
dissenters what you spend the money on or how you spend it, 
because they are not covered by Beck rules. And since those are 
private, voluntary donations, it is not clear to me why they 
should be covered by Beck rules.
    Mr. Cummings. So isn't it true that in recent history, the 
vast majority of union political activity is funded by the 
voluntary PACs and not the union dues?
    Mr. Dau-Schmidt. That is right, and that may explain some 
of the confusion here. In other words, if the other panel 
members are looking at political action committees and union 
spending there, that is really not part of what they would be 
charged for in either an association fee or union dues.
    Mr. Cummings. All right.
    Now, you talked about, you had said there are laws that 
exist to protect union workers. And you were talking about 
protecting them from forced political contributions. So that is 
clear in the law, is that right?
    Mr. Dau-Schmidt. That is very clear in the law. There is 
some variation. I think Ms. Coomer's case is probably governed 
by State law, from what I hear her describing. The Federal law 
is what I am most familiar with. But it sounds to me, actually, 
once again I don't want to, she knows her situation better than 
I do. But it sounds to me, from hearing the description, that 
the State is her employer, not her daughter.
    Mr. Cummings. So corporations are not entitled, now, 
corporations are not entitled to spend any corporate assets on 
political activities, even if their shareholders object? Is 
that right? In other words, corporations are entitled to spend 
whatever they want to spend?
    Mr. Dau-Schmidt. That is correct. The corporations that I 
invest my 26 years of 10 percent of my income in could take all 
of that and spend it on political purposes. I would never even 
know about it.
    Mr. Cummings. In fact, a 2012 paper by Harvard professor 
Benjamin Sachs explains it, and let me, I want you to listen to 
this quote: ``The problem from this perspective is rather that 
the asymmetric rules of opt-out rights provides corporations a 
legally constructed advantage over unions when it comes to 
political spending. And this kind of legally conferred 
advantage is consistent with Federal campaign finance law. And 
in particular, with that regime's insistence that unions and 
corporations be put on exactly the same basis insofar as their 
financial activities are concerned. The result is problematic, 
too. From the broader perspective of democratic politics, 
corporations undoubtedly will be the most well-funded speakers 
in the electoral arena.''
    And corporations are using shareholder funds for political 
donations. A 2010 joint study by the Sustainable Investments 
Institute and the Investor Responsibility Research Center 
Institute found that ``Nearly 60 percent of the largest U.S. 
companies spend shareholder money from the Corporate treasury 
on political activities.'' Now that corporations can give 
unlimited amounts of funds to political action committees, 
those PACs are estimating that they will inject more than $200 
million in the 2012 elections. The Wall Street Journal has 
observed that aside from the political candidates and the 
parties, these outside groups have become possibly the largest 
force in the 2012 campaign.
    Professor, how does this disparity in the rules impact 
unions and those that impact corporations influence the 
democratic political process?
    Mr. Dau-Schmidt. Well, I think as, first of all, I was glad 
to hear you have looked up Professor Sachs' article. It is an 
excellent article. I cited it in my own written testimony. And 
when you have a hearing on this in the future on the 
possibility of corporate dissenters, he would be an excellent 
witness to have.
    I think as he outlines, it does make a systematic bias in 
favor of corporate funding. In other words, unions have all 
these obligations that they have to meet. And I think 
rightfully have to meet. But corporations have no obligations 
to meet. And we are talking about putting further obligations 
on unions. As a result, any time a union tries to do anything 
political, there is always the possibility that they could be 
sued or that they will have to file another form or whatever. 
And it hampers their collective action and their voice.
    And when you look at the larger political perspective, as 
Professor Sachs demonstrates in his article, corporations 
already have the vast majority of spending on political 
activities. And they have access to much more money for 
spending on political activities. And to hamper the weaker 
party in this debate, but not to require reasonable notice and 
reasonable chance to opt out from corporations is just not fair 
and it is not good for our democracy.
    Mr. Cummings. I see my time is expired. Mr. Chairman, I ask 
unanimous consent that a political article dated today, 
entitled AT&T Shareholders Demand Answers, I would ask that 
that be made a part of the record.
    Mr. Jordan [presiding]. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 64029.046
    
    [GRAPHIC] [TIFF OMITTED] 64029.047
    
    [GRAPHIC] [TIFF OMITTED] 64029.048
    
    [GRAPHIC] [TIFF OMITTED] 64029.049
    
    Mr. Cummings. Thank you.
    Mr. Jordan. The gentleman from Arizona, Dr. Gosar, is 
recognized.
    Dr. Gosar. It has been interesting that we have been 
hearing the good doctor talk about all these checks and 
balances. But I want to ask Ms. Waites, Ms. Coomer and Mr. 
Bowman, application is another thing. I am a dentist 
impersonating a politician, so I like application and the 
beauties in the detail.
    A Hudson notice, Ms. Waites, were you ever given a Hudson 
notice?
    Ms. Waites. I am not familiar with what that is.
    Dr. Gosar. Ms. Coomer, were you ever given a Hudson notice?
    Ms. Coomer. No.
    Dr. Gosar. Mr. Bowman, how about a Hudson notice?
    Mr. Bowman. No.
    Dr. Gosar. Were you made aware of a Hudson notice?
    Mr. Bowman. Not to my knowledge, no.
    Dr. Gosar. Ms. Coomer.
    Ms. Coomer. No.
    Dr. Gosar. Ms. Waites.
    Ms. Waites. No.
    Dr. Gosar. So when you actually, Ms. Waites, when you were 
told about the Children's Fund, and its name, and you found out 
it was very deceptive, how did your inquiry go? How were you 
satisfied from the union?
    Ms. Waites. To get my money back? I was told no, that it 
wasn't going to happen. And it did not happen.
    Dr. Gosar. You were not provided any grievance or a Hudson 
notice?
    Ms. Waites. No, sir.
    Dr. Gosar. Do you want to answer that, sir?
    Mr. Dau-Schmidt. Yes, I do. It sounds to me like both of 
them are public employees, who would be governed by State law. 
And he is not a Beck objector, so he would not get a Hudson 
notice. If he was Beck objector, then he would get a Hudson 
notice.
    Dr. Gosar. So for all of you, when you are a part of this 
union, are you apprised of everything as far as your rights, as 
freedoms, that you are entitled to? Mr. Bowman.
    Mr. Bowman. In the Solidarity Magazine that the UAW 
publishes, I do believe they have a small paragraph in the 
magazine. I don't know if it is in every issue, but maybe once 
a year they publish that you do have the right to rescind and 
exercise Beck rights.
    Dr. Gosar. Has anybody done that?
    Mr. Bowman. I believe there are Beck rights objectors, yes.
    Dr. Gosar. Okay. And do you have a counselor that you can 
go to?
    Mr. Bowman. I believe you do it on your own. It is, there 
is no counselor in the manufacturing facility that I work at 
that helps you with that process. And like I said, most people 
don't do it, because there is ridicule and harassment that goes 
with exercising your Beck rights.
    Dr. Gosar. Now, Ms. Coomer, when you are talking about what 
your risk is, are you familiar with what Mr. Dau-Schmidt had 
said, that you are mainly a State organization?
    Ms. Coomer. I am not a State employee. I have been told 
that, I have asked that multiple times. And any of the 
paperwork I have received shows that I am the employee of the 
client, which would be my daughter. And I have contacted the 
union to ask them as well about that, and they have expressed 
the same thing, that I am the employee of the client, which is 
my daughter. I explained that her developmental level was that 
of a small child, and they were very confused by that.
    So I don't get the same benefits as a State employee, I am 
not a subcontracted worker. I am, according to the State of 
Washington, an employee of my daughter with the Governor as the 
employer for bargaining purposes only.
    Dr. Gosar. Ms. Waites, your opportunities belonging to the 
union, if you don't belong to the union, what are the 
consequences?
    Ms. Waites. There are no consequences, but you are on your 
own as far as if you have an issue with a parent or you are 
being sued. You will have to put that out of your pocket.
    We consider AEA, in Alabama in the beginning, more of a 
Professional organization and not a union, because we have no 
collective bargaining power. Most people, especially in my 
county, are members of AEA for that liability insurance. 
Without it, we would be on our own.
    Dr. Gosar. But they are also still spending money on 
political actions, are they not?
    Ms. Waites. Yes, sir. Out of our paycheck, we have what 
they call an A Vote taken out of our paycheck every month. And 
when you first join AEA, on the application form it, in the 
very bottom in the fine print it says, if you don't want this A 
Vote, you have to actually put it in writing to our county's 
payroll department. And I actually have checks with me from 
1989 and 2008 where it is still being taken out.
    Dr. Gosar. So that is a donation to a PAC?
    Ms. Waites. It is a donation to a PAC, A Vote, and it is a 
PAC fund.
    Dr. Gosar. So have you inquired as to why there is only one 
opportunity for liability?
    Ms. Waites. I think the State of Alabama this last year, 
they were trying to come up with something different for 
teachers. And it got thrown out of the legislature, and nothing 
has become of it yet. But we definitely do need another option.
    Dr. Gosar. Have the teachers pursued that?
    Ms. Waites. On our own? No.
    Dr. Gosar. Why not?
    Ms. Waites. As far as to get a carrier to handle our 
liability, I have not pondered that. But you have given me food 
for thought. We have just never done it on our own.
    Dr. Gosar. Thank you. My time is up.
    Mr. Jordan. I recognize the gentlelady from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    This hearing needs to be seen in its full context of what 
is happening in this country with respect to the right to 
organize. The right to organize collectively is seen the world 
over as one of the great human right protections. It is in 
every one of the great human rights declarations and whether 
you are talking about a universal declaration of human rights, 
the U.N. Global Compacts 10 Principles has as principle number 
three, businesses should uphold the freedom of association and 
the effective, effective recognition of the right to collective 
bargaining.
    But look at the trends we see throughout this country that 
come close to trying to extinguish this very right. Here in the 
Congress, Federal employees don't even have the right to 
bargain for pay, and yet they are harangued as if they were the 
cause of every problem facing the Federal Government. So the 
majority can entitle this hearing the right to choose and 
protecting union workers, but this majority will never be 
regarded as a champion, much less a protector, of workers in 
the long struggle for collective bargaining rights, when those 
rights were achieved.
    We saw a trend that was very important, because that 
happened right out of the New Deal, as the recovery occurred. 
Because there were unions in place, management did not get all 
of the fruits of the recovery, because there were unions there 
to bargain for some of that, and America reached its highest 
point, its best economy, when these unions were strong. Today, 
a worker essentially in this country can, has to take what he 
can get and a huge income gap has opened up that is shameful 
and all of us understand it to be so.
    And collective bargaining is not result-oriented. In a 
market economy, you have a right to bargain for your labor. 
Ever since the Taft-Hartley law, there have been a plethora of 
laws to protect the right not to join a union. No scarcity of 
legislation there. But today we see an effort almost to 
extinguish that right.
    In Wisconsin, the right to collective bargaining, virtually 
all the rights for all Federal employees would have been 
extinguished but the Governor, Americans are fighting back, is 
now subject to recall, along with the State senators who voted, 
got twice as many signatures. Ohio repealed a similar law. 
Eight hundred bills in our country have been introduced 
essentially to do all but repeal the right to bargain 
collectively. We are seeing something that if it happened in 
virtually any other country, we would be criticizing and 
withdrawing funds, if we gave them any money.
    I do want to set the record straight, because Ms. Waites, 
you testified at length about your complaint. But I do not see 
in your testimony that your complaint with the FEC about your 
contributions, I do not see in your testimony that the FEC 
threw out that complaint. Don't you think you should have also 
testified, or at least complained, maybe that's what you want 
to do, that this, that you complained about it before the FEC, 
were represented by counsel and yet it was not recognized and 
was thrown out?
    Ms. Waites. Yes, ma'am, I did file a complaint and it was 
thrown out.
    Ms. Norton. Thank you very much, I have very little time 
left. I just wanted to establish that for the record. I am not 
complaining that you filed.
    Mr. Dau-Schmidt, I simply ask you to lay out just in clear 
form, so that we can understand, has the Supreme Court 
established procedural safeguards to protect a worker's right 
not to contribute to union political activities? Indeed, has it 
provided workers with the right to challenge the union's 
calculation of agency fees? I would like you to spell that out. 
We need to know whether workers somehow are victims of unions 
or not.
    Mr. Dau-Schmidt. Sure. I do want to clarify, and I have 
done this just a little bit, there are basically three 
different legal regimes here. There is the National Labor 
Relations Act, there is the Railway Labor Act and then there is 
public sector employees. And actually within public sector 
there are both Federal and State.
    So there are three different legal regimes. But certainly 
in the Federal, which is what Congress is primarily, I am 
sorry, in the private sector, the National Labor Relations Act 
and the Railway Labor Act, that Congress is primarily concerned 
with, in the law and in its interpretations by the Supreme 
Court, we have a number of established rights. I gave those in 
my introduction.
    No one can be required to join a union, no one can be 
required even to pay full dues, although if you are in a State 
that allows the enforcement of union situated agreements, you 
can be required to pay an agency fee. In calculating those 
agency fees, unions are not allowed to charge members for 
political activities. They are only allowed to charge them for 
the cost of actually negotiating and enforcing the contract in 
the bargaining unit.
    Unions, if they have dissenters who don't want to be full 
members in the private sector under the National Labor 
Relations Act, unions are also required to give dissenters a 
Hudson notice every year where they give an accounting of their 
spending and they give the dissenter an opportunity to 
challenge the assessment of their agency fee. And also no dues 
or fees can automatically be deducted from the employee's 
paycheck without their consent.
    Now, some States have emulated some of these provisions. So 
in some States, you would have laws similar to that. I am not 
familiar----
    Ms. Norton. This is the Congress, so it is the Federal law 
that I am interested in. Thank you very much.
    Mr. Jordan. I thank the gentlelady.
    I would now recognize the doctor from Tennessee, Dr. 
DesJarlais.
    Dr. DesJarlais. Thank you, Mr. Chairman, and thank you to 
all the panelists for attending here today.
    Really, I am going to be fairly brief. I just have a couple 
of questions I am going to direct to Ms. Waites and Ms. Coomer, 
and the idea kind of came originally from your testimony.
    First is kind of a question of policy. Second is more a 
question of curiosity. If I was an attorney, I probably 
wouldn't ask the second question, but I am a physician, so I 
will.
    The first question would be, you both had testified to the 
fact that you were forced to pay union dues that were given to 
political campaigns against your will. Were you ever consulted 
by the unions as to what your choice would be for the 
candidate? Ms. Waites.
    Ms. Waites. No, and we had to make a political contribution 
for the Children's Fund, and we never had a voice or ballot or 
survey on who NEA would support with that money.
    Dr. DesJarlais. Ms. Coomer.
    Ms. Coomer. No. I was just informed that my union dues were 
going to be increased for, and then they listed the different 
causes.
    Dr. DesJarlais. And then the second question, out of 
curiosity, I heard your testimony, was that the money in both 
your cases went to candidates you didn't support. If it had 
been the other way around and it was a candidate that you 
supported, would you have felt differently, or would you have 
preferred that you get to make those choices on your own?
    Ms. Waites. No, I wouldn't change my mind. They shouldn't 
make contributions in someone else's name, period, no matter 
which party or which affiliation.
    Ms. Coomer. I agree with that. I just, for my situation, I 
don't think it is an appropriate use of the fund.
    Dr. DesJarlais. Okay, thank you, and I yield the balance of 
my time to the chairman.
    Mr. Jordan. I thank the gentleman. I will be quick, too.
    Mr. Bowman, in your testimony, you said, you asked your 
fellow union members, do you think union officials use your 
regular dues on politics. And your testimony reads, without 
exception, everyone laughed and said, of course they do.
    Mr. Bowman. That is correct.
    Mr. Jordan. So it is commonly understood that what they are 
paying is being used for political activity.
    Now, my concern is, do they know, do you think your fellow 
union members are adequately informed of their rights that they 
have that exist for them? And if so, how are they notified of 
those rights?
    Mr. Bowman. Personally, I do not believe they are 
adequately notified. As I said----
    Mr. Jordan. You are, you have taken the time to research 
and figure it out . But you don't think most of them are?
    Mr. Bowman. Well, this is a passion of mine, so yes, I am 
very well aware of my Beck rights and the other rights that 
come with it. But in a publication, by the way the publication 
of the UAW's magazine called Solidarity, is full, cover to 
cover, basically, of union propaganda, all paid for with 
regular, legitimate union dues. And I believe that should be 
omitted from the agency fee, because it is full of political 
propaganda.
    But there is a blurb in there, I don't know how often it is 
in the magazine, that you are able to exercise your Beck rights 
if you so choose. So yes.
    Mr. Jordan. Ms. Waites, Ms. Coomer, would you say the same 
thing, that you think, would you say most of your colleagues, 
fellow union members, it would be your guess that they are not 
adequately informed or not well informed about their rights?
    Ms. Waites. Yes, definitely.
    Ms. Coomer. I would have to say that that is the case. A 
lot of the folks that I associate with that are union members 
are parents like myself. And so no, they aren't informed.
    Mr. Jordan. And Doctor, you would think, part of, if you 
are going to join a union, and as we think about this area of 
the law, doesn't it make sense for people to fully understand 
what their rights and privileges and rights are?
    Mr. Dau-Schmidt. The rights have changed recently, because 
Citizens United actually does allow, if you are a member, your 
dues can be paid, can be used for political purposes.
    Mr. Jordan. Let me ask you a specific question. In the 
first 2 weeks, and I understand it doesn't apply to the folks 
here, it is about Federal contractors, but I am just curious, 
when I go out and tour a facility in our district, one thing I 
notice is the employer is required to post all kinds of things, 
every OSHA standard, I have had guys, contractors tell me the 
things they have to post, the law requires them, for their 
employees to see, said in fact it is so much they don't even 
know if the employees just say, oh, forget it all. But they are 
required to post all this.
    And yet this administration, in its first 2 weeks in 
office, Executive Order 13496, revoked the requirement that 
Federal contractors inform workers of their Beck rights in 
employment notices. Now, why would, if we want employees to 
know their full rights, if we want them to have the freedom to 
choose and know what their money is being spent on, the rights 
they have, why would this administration in the first 2 weeks 
on the job issue that kind of Executive order?
    Mr. Dau-Schmidt. I think you should ask the administration. 
They might have thought it was too burdensome or ineffective.
    Mr. Jordan. Too burdensome to let--so your testimony is it 
is too burdensome to let Federal employees know their rights?
    Mr. Dau-Schmidt. It is my testimony you should ask the 
administration why they did it. If you want me to speculate, I 
will speculate.
    Mr. Jordan. No. But you have said, before asking the 
administration, you said it----
    Mr. Dau-Schmidt. No, I said it after----
    Mr. Jordan. You said, it may be too burdensome. Too 
burdensome to let people know what their rights are under the 
law?
    Mr. Dau-Schmidt. They may have thought it was ineffective.
    Mr. Jordan. Ineffective. Okay. I appreciate that.
    I now yield to my good friend from Ohio, Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    I came back to my desk to find this copy of this book that 
the Chair of the committee gave to all of us, a book that was 
written 55 years ago called The Enemy Within. It talks about an 
investigation of the McClellan Committee.
    We can't be fighting battles that are 55 years old. We 
can't be doing that. And I want to say for the record, my Dad 
was a teamster. He was a 35-year member of Local 407. He was a 
teamster during the time that Jimmy Hoffa was head of the 
teamsters, and he loved Jimmy Hoffa. There is a reason why 
Hoffa's picture, a portrait, is in the airport in Detroit, 
along with others, in a place of honor. And that is because he 
defended workers.
    Now, do I endorse anything that Mr. Hoffa did that was not 
within the law? Of course not. But we have to stop fighting 
battles that are 55 years old, and let's get contemporary.
    And I will say with respect to Robert Kennedy, his 
assassination left a vacuum in American politics that still 
hasn't been filled.
    Let me tell you about ways in which unions have improved 
workers' lives. A constituent of mine just sent this to me, and 
I thought it was important enough to read it. Weekends, breaks 
at work, including lunch breaks, paid vacation, sick leave, 
Social Security, minimum wage, Civil Rights Act, Title VII, 
which prohibits employer discrimination, 8-hour workday, 
overtime pay, child labor laws, Occupational Safety and Health 
Act, 40-hour work week, workers compensation, unemployment 
insurance, pensions, workplace safety standards and 
regulations, employer health care insurance, collective 
bargaining rights for employees, wrongful termination laws, Age 
Discrimination in Employment Act of 1967, whistleblower 
protection laws, Employee Polygraph Protection Act, veterans 
employment and training services, compensation increases and 
evaluation raises, sexual harassment laws, Americans with 
Disabilities Act, holiday pay, employer dental, life and vision 
insurance, privacy rights, pregnancy and parental leave, 
military leave, the right to strike, public education for 
children, Equal Pay Acts of 1963 and 2011, laws ending 
sweatshops in the United States. This is just a partial list.
    We are talking about a movement whose basis is social and 
economic justice. I don't understand what this attack is going 
on in this country, except it is about an effort, they call it 
right to work, it is about an effort to create right to work 
for less. Right to work for less. That is what this is all 
about. Right to less benefits.
    Now, Americans might have different opinions about unions. 
But I want to quote from a Labor Day speech, ``On this day, 
dedicated to American working men and women, may I tell you the 
vision I have of a new administration and a new Congress, 
filled with new Members dedicated to the values we honor today. 
Beginning in January, American workers will once again be 
heeded. Their needs and values will be acted upon in 
Washington. I will consult with representatives of organized 
labor on those matters concerning the welfare of working people 
of this Nation. As president of my union, the Screen Actors 
Guild, I spent many hour with the late George Meany, whose love 
of his country and belief in a strong defense against all 
totalitarians is one of labor's greatest legacies.''
    It goes on to say, ``While I pledge to you in George 
Meany's memory that the voice of the American worker will once 
again be heeded in Washington, and that the climate of fear 
that he spoke of will no longer threaten workers and their 
families.'' I would like unanimous consent to submit into the 
record the words of President Ronald Wilson Reagan.
    Mr. Jordan. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 64029.050
    
    [GRAPHIC] [TIFF OMITTED] 64029.051
    
    [GRAPHIC] [TIFF OMITTED] 64029.052
    
    [GRAPHIC] [TIFF OMITTED] 64029.053
    
    [GRAPHIC] [TIFF OMITTED] 64029.054
    
    Mr. Kucinich. Thank you.
    Now, in the time that I have left, I just have a question 
of the Professor. We have Mr. Bowman and others stating that 
right to work laws make unions stronger, result in more 
businesses choosing to settle into right to work States. But 
robust studies take into account that other variables, such as 
cost of living differences and economic conditions directly 
contradict those assertions. In fact, studies you cited in your 
testimony show that right to work laws lower wages, lower 
wages, for both union and non-union workers by an average of 
$1,500 per year. And those studies show that the rate of 
employer-sponsored health insurance is 2.6 percent lower.
    Can you explain this, Professor, how this comes to be, and 
isn't in fact right to work destructive of the economic 
interests of working men and women?
    Mr. Dau-Schmidt. Yes, Representative. As you may know, 
Indiana just recently passed a right to work law. So we have 
had this debate actively undertaken in our State. I have been 
asked to comment on this several times. So I am pretty well 
versed on this.
    And there have been numerous studies done. The one that I 
gave you that I cited in there is the most conservative and 
probably the best done study to date on this. And you are right 
that it shows that workers, both union and non-union workers' 
wages are $1,500 lower in right to work States, and also 3 
percent, almost 3 percent have less, workers have less health 
benefits, and almost 5 percent less have pensions.
    There actually are other studies, Marty Wilson in Notre 
Dame, because it of course, this concerned the State of 
Indiana, he went and compared just average compensation per 
non-farm worker between right to work States and non-right to 
work States. And he found that actually, in right to work 
States, workers are paid on average $7,835 less.
    Mr. Kucinich. My time is expired. Thank you, Mr. Chairman. 
I just wanted to point out this is about right to work for 
less.
    Mr. Jordan. Well, I would just say in response to my good 
friend's time and comments, my dad was a union worker as well, 
30 years, International Union of Electrical Workers, worked for 
General Motors and voted for Ronald Reagan. And if he were 
here, I would bet he would say the fact that his union dues 
were being used to help the guy who was running against Ronald 
Reagan was something he didn't appreciate. So that is what this 
is about. This is about employees, union members, not having 
their money taken from them and used against the very person 
they may want to see in office representing their interests, 
their families, their community and frankly, the community they 
work for. So it goes both ways, Mr. Kucinich.
    Mr. Kucinich. Would my friend yield?
    Mr. Jordan. I would be happy to.
    Mr. Kucinich. I would just like to say briefly, that I 
think the record would show that there were in fact some unions 
who supported Ronald Reagan's candidacy, proving my point. 
Thank you.
    Mr. Jordan. I now recognize the gentleman from 
Pennsylvania, Mr. Kelly.
    Mr. Kelly. I thank the chairman.
    Let's just have some agreement on a couple of things. First 
of all, today's hearing is about the right to choose, 
protecting union protecting union workers from forced political 
contributions. I don't think there is anybody on the panel that 
would disagree that every American has the right to say yes and 
the freedom to say no. Is there anybody that disagrees with 
that statement? All right.
    Because then it calls to mind the fact that, and this keeps 
coming up, there is a term out there called hypocrisy. The 
behavior of people who do things that they tell other people 
not to do. So we say one thing and then we do another. So we 
kind of pick and choose the times that we feel what we say is 
appropriate for us and not appropriate for other people.
    The fact that any worker, I don't care who it is, every 
worker in this country, every American has the right to his or 
her opinion and ability to say yes or no to where their money 
should go. I don't think anybody should ever be forced to 
donate to a political campaign or a candidate. You should have 
the right to say where your money goes. I don't think there is 
any question about that. And if anybody disagrees with that, I 
would like to have rebuttal on that, because I think that is 
what this goes to the core of.
    This is about worker rights, it is about American rights, 
this is about what we do believe. So let me ask you, Mr. 
Bowman, in your testimony you began talking about union 
political spending because of a story you had read in your 
union's newspaper.
    Mr. Bowman. Yes.
    Mr. Kelly. Can you expand on that a little bit?
    Mr. Bowman. Sure. Thank you for giving me that opportunity.
    I have always been an open political conservative inside my 
union, which has led to a lot of harassment and persecution. 
But over 13 years or so, as a union member, we are told who to 
vote for. At our union meetings, our plant chairman points at 
all of us and says, you all better be voting for Democrats. So 
over 13 years, you get to the point where it really becomes 
quite burdensome.
    In our local newsletter, called The Raw Facts, because of 
the plan I work at is the Rawsonville Plant, there was an 
article in there that said, Health Care Reform, What Would 
Jesus Do. Now, I have to put this in context, I have studied at 
seminary and am quite familiar with scripture. And in this 
article, it basically made Jesus appear as if, according to 
scripture, that he was, number one, a socialist, and number 
two, that he would approve of the Affordable Heath Care Act 
that was in discussion at that point.
    I knew from my own study that they completely took it out 
of context. So at that point, I stood up and I said, enough, I 
have to start doing something. That is when I started getting 
the idea of coming up with Union Conservatives and organizing 
conservatives in the union to fight back against that.
    Mr. Kelly. So tell me about the group, Union Conservatives, 
that you founded. Tell me a little about that group and how 
that group feels and the feeling that you are getting and the 
number of people that are signing up on that.
    Mr. Bowman. Well, the majority obviously are people who are 
of the conservative political nature. I do have some Democrats 
who are signed up that say they don't necessarily believe in my 
political affiliation; however, they do think that all union 
members should have the right to speak their mind without fear 
of harassment and ridicule, which of course, on the assembly 
line, many people agree with what I agree with, but they keep 
their heads down because of the intimidation that goes into the 
union atmosphere.
    Mr. Kelly. So when you are speaking about that, you are 
speaking about actually what you experience being part of the 
work force?
    Mr. Bowman. That is absolutely correct.
    Mr. Kelly. So this isn't anecdotal, this isn't something 
that you heard from someone else or something you think?
    Mr. Bowman. No. This is my own story.
    Mr. Kelly. This is what you see on the floor every day?
    Mr. Bowman. This is my story.
    Mr. Kelly. Okay, because my experience has been the same 
way. I am an automobile dealer, and have spent a lot of time in 
Lordstown with our UAW guys, in fact, we would go back and 
forth, we would go to Lordstown and watch them build cars, then 
they would come to the dealership to see how that relationship 
worked. Because as a result, it comes down to, listen, we need 
those guys to build great cars. I know you are a Ford guy and I 
know you didn't take the money in the bailout, so I am real 
happy for that.
    Mr. Bowman. Thank you for that.
    Mr. Kelly. But I also know that America's ability to build 
things has never been questioned. We build great products.
    Mr. Bowman. I am a very proud automobile worker and as my 
testimony said, pro-union. But only in the context of what 
unions were created to do, and that is just to represent their 
employees in the realms of the workplace, not as a 
socioeconomic group or a quasi-political party.
    Mr. Kelly. And I appreciate that. Because my experience has 
been exactly the same, as I said earlier. My dealership is 
located about a half a mile away from AK Steel. And those 
fellows belong to the UAW also. There is not a person I have 
ever talked to, and it is conclusive, on both sides of the 
aisle, we are so much in favor, we are all pro-worker people, 
we are all pro-labor, we want to see people back to work.
    But we also want to make sure that we protect the 
constitutional rights that people have under the First 
Amendment. You can do and say what you want when you want to 
say it, and nobody can inhibit you from that. By the same 
token, nobody should ever force you to give money to a 
political candidate you do not want to give money to.
    I thank you for your testimony, and I yield back my time, 
Mr. Chairman.
    Chairman Issa [presiding]. The gentleman yields back.
    I believe--that is not yet a vote, right? Good. In that 
case, Mr. Clay, you get your full 5 minutes. The gentleman is 
recognized.
    Mr. Clay. Thank you, Mr. Chairman, six bells indicate that 
the House is in recess.
    Let me ask Ms. Coomer, how did the State of Washington 
inform caregivers that you were going to join SEIU, that you 
were going to be in a union? How was that done?
    Ms. Coomer. Actually, I wasn't notified that I was going to 
be joining the union. I was just notified that I needed to 
become an individual provider.
    Mr. Clay. Okay, and then how did the process come about 
that you joined SEIU?
    Ms. Coomer. I did not know until I got my check and I saw 
that union dues were being deducted.
    Mr. Clay. Okay. Then of course you probably inquired about 
where your union dues were going?
    Ms. Coomer. Yes.
    Mr. Clay. And you said in a statement that dues go to fund 
candidates that you would not normally support. Have you had 
any contact with union officials to say, well, here is a list 
of candidates that I would support?
    Ms. Coomer. I contacted the union to find out about trying 
to divert my dues somewhere else, and had a really hard time 
getting any kind of a response. They would refer me back to the 
bargaining agreement, which I have tried to decipher for the 
last year, and have not gotten a response from the union.
    Mr. Clay. Do you think that the rank and file's opinions 
are really adhered to or listened to by union leadership as far 
as how they select candidates they support?
    Ms. Coomer. You know, I am not sure. All I know is that the 
information and materials that I get don't just have 
information in regard to candidates, but it also has 
information and encourages us to vote for certain initiatives 
or not vote for other initiatives or laws that again I don't 
always agree with.
    Mr. Clay. Thank you for that response.
    Dr. Schmidt, you had something to add?
    Mr. Dau-Schmidt. Just to kind of try to clarify. Once 
again, Ms. Coomer knows her situation much better than I do, 
but I do know a little bit about the law and what has happened 
in organizing this situation. And what has happened nationwide, 
actually, in a variety of States, is home health care workers 
have, prior to the organization of State associations for them, 
they were independent contractors and they were actually 
prohibited from collective bargaining. So they would work and 
get compensated by the State and they were paid very poorly.
    And unions thought this was a problem, and it started in 
California, it went on to Illinois, I believe it was in 
Washington, too. And what they said was, let's organize a State 
entity that actually employs these people. And as a result, 
they can be employees and then they can collectively bargain. 
And I believe that is what was done in Washington, so that when 
she became an independent home health care worker, she was 
actually, I think, an employee of the State.
    Chairman Issa. Doctor, I don't mean to interrupt, but 
please limit your hand motions. They are going out a long way.
    Mr. Dau-Schmidt. The two clues to that are first of all, 
that the union negotiates with the Governor, not with her 
daughter. So I don't see how the daughter can actually be the 
employer. Also that she is exempted from Social Security. State 
employees, when I was a State employee in Ohio, I was also 
exempted from Social Security. And that is not common for State 
employees, but it does happen for State employees.
    Now, I did want to, the representative down here, I can't 
see his name----
    Mr. Clay. No, now, let's talk. Don't worry about what he 
said.
    Isn't it true that when unions get involved in the 
political realm, they are giving a voice to millions of working 
Americans on the very activities that are important to the 
working families whom they represent, issue such as, for 
example, health care, education, labor standards, civil rights 
and workplace safety?
    Mr. Dau-Schmidt. I believe that is true. And if you look 
historically, I mean, we could still have, child labor laws, we 
could still have 60-hour work weeks. I love that little bumper 
sticker that says, the weekend brought to you by the labor 
movement.
    Mr. Clay. Now, the primary responsibility of unions has 
been in managing the employment relationship between workers 
and management, correct?
    Mr. Dau-Schmidt. Yes.
    Mr. Clay. And you stated that Federal law also requires 
that the union must fairly represent all employees in the 
bargaining unit, whether the employee is a member of the union 
or not?
    Mr. Dau-Schmidt. Yes.
    Mr. Clay. Can you explain the importance of the fair 
representation principle in labor management relations?
    Mr. Dau-Schmidt. Yes. It actually goes back to our system 
of exclusive representation. We have set up, under our Federal 
labor law, we have set up bargaining units like little 
electoral units. We are the only people in the world to do 
this, other people do it differently. But we have a bargaining 
unit, and over a bargaining unit we have an election. And if a 
majority vote for the union, everybody is represented by the 
union. And if a majority does not vote for the union, nobody is 
represented by a union.
    As a result, you can always have people that are unhappy 
with the choice. It is a collective decision. And we did this 
because we advocate democracy worldwide. And in the 1930's, we 
have been, you have seen that most recently, we invaded Iraq in 
part to bring democracy there or whatever. We are very big on 
democracy.
    And the idea was that if democracy was good for the 
government, it could also be good for the workplace. And so we 
had the idea of bringing industrial democracy to the workplace.
    And that actually goes to the membership, too. The 
representative over here asked if people should ever have to 
support political causes that they don't believe in. And I 
agree in general that they should not.
    But the one qualification I would make is, when you are a 
member of an organization, sometimes you are going to influence 
that organization and they will do what you want them to do, 
and sometimes somebody else will influence that organization 
and get them to do what they want you to do.
    Chairman Issa. Will the gentleman wrap up? We are about a 
minute overdue.
    Mr. Dau-Schmidt. Okay, I am sorry. Mr. Bowman is concerned 
because the organization of which he is a member does not 
always do what he wants it to do. But if we said, organizations 
can't do anything unless they get the agreement of everybody 
within the organization, they would never do anything. And as a 
result, he has the choice to either be a member, as he 
currently is, and sometimes not be happy, or to be a non-
member, in which case they will not be able to charge him for 
that political activity.
    Chairman Issa. I thank the gentleman. We now go to the 
gentleman from Illinois, Mr. Walsh, for 5 minutes.
    Mr. Walsh. Thank you, Mr. Chairman, and thank you to all 
the witnesses for coming.
    Let me apologize if I am redundant at all. Mr. Bowman, help 
me connect some dots here. The Obama administration, as we 
know, has taken actions over the last few years to strengthen 
union control over workers. They have done this primarily by 
weakening reporting requirements for those unions. These 
actions have combined to basically give unions the ability to 
spend members' dues without rank and file members knowing where 
that spending is going.
    We also know that unions put about $1.4 billion into the 
2010 elections. Silly stupid question, but let me ask it. Of 
that $1.4 billion, how do you think that money went as far as 
split between Republicans and Democrats? Do we know?
    Mr. Bowman. I do not have that figure, Representative, so I 
am not sure.
    Mr. Walsh. What would you guess?
    Mr. Bowman. My guesstimate would be, again, well over 90 
percent of the contributions would go for one particular party 
over another, that is correct.
    Mr. Walsh. And what party would that be?
    Mr. Bowman. That would be the Democrat party.
    Mr. Walsh. And I think that is probably a pretty safe 
guess.
    Mr. Bowman. Yes.
    Mr. Walsh. Why is that? And again, silly question number 
two, if over 90 percent of that $1.4 billion is going to 
Democratic candidates and causes, are we to assume that 90 
percent of union rank and file are Democrats?
    Mr. Bowman. Well, I know that not to be true. I think that 
the unions now are becoming very prominent in the public 
sector, the government sector, as opposed to the private 
sector. The Bureau of Labor Statistics released their 2011 
figures last month. The private sector was at only 6.9 percent, 
I believe, of employees were in the union membership. But it 
was much higher in the 30 percent range of union members, 36 
percent range of union members.
    So the relationship between the union and their Democrat 
officials in the State is a cycle of dependency that is fed 
with taxpayer dollars. So I believe that is where that comes 
from, all that money is coming from taxpayer dollars.
    Mr. Walsh. So then it leads us to the next question, which 
is, again, if 90 percent of what union leadership is giving 
politically goes to Democrats, and we know that the union rank 
and file is not 90 percent Democrat, what is the, who is the 
Obama administration listening to, in your estimation? Union 
leadership or the rank and file?
    Mr. Bowman. Well, of course it is the union leadership.
    Mr. Walsh. Why would that be, though?
    Mr. Bowman. Because they control the money and control the 
funds.
    Mr. Walsh. So not necessarily the interests of the rank and 
file?
    Mr. Bowman. That is correct. And we have talked about the 
difference between PAC funds and forced union dues in the 
difference. My written testimony has many examples in the 
agency fee that are very political activities but still 
included in that agency fee.
    Mr. Walsh. One thing I have noticed a lot of the last year 
or so when I have been at home is union rank and file members, 
trade union guys, private sector union guys are pretty upset 
right now. They are not working. Many are struggling 
financially, they are losing their homes. They are upset with 
their leadership because their leadership really sort of 
foisted this administration on them. I am seeing a widening 
gulf.
    Do you get any sense of, is there any groundswell among 
rank and file who are more willing to publicly express how 
upset they are with what their leadership is doing?
    Mr. Bowman. Very much so. That is why my organization, 
Union Conservatives, was started, because there are so many 
people who are feeling left out of the activities of the union 
officials, and wanted to join an organization that actually 
mirrored their interests.
    I can give you two examples recently. The Keystone Pipeline 
issue, many union members are extremely upset. In fact, a 
labors union, I believe, pulled out of the Blue Green Alliance 
because of that, because so many jobs, potential jobs, were 
killed by the decision. And then also, so many union members 
were upset after October 2, 2010, when union officials rallied 
in Washington, DC, called the One Nation Working Together 
Rally. And they found out only afterward that they also rallied 
with the Communist Party USA, the Socialist Party USA and the 
Democratic Socialists of American. When it was reported 
afterward, so many union Members on both sides of the aisle 
were very upset about it.
    Mr. Walsh. Final question, Mr. Chairman. Is it safe to 
assume, Mr. Bowman, that you see a widening gulf between union 
rank and file and their leadership?
    Mr. Bowman. Absolutely. I speak to a lot of groups. Even 
Tea Party groups have a lot of union members in the Tea Party 
groups as well.
    Mr. Walsh. I will be dogged. Wow. Thank you, Mr. Bowman. 
Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    We now go to the gentleman from Massachusetts, Mr. Lynch, 
for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    Just as a, I guess, general disclosure, I should disclose 
the fact that I am a 30-year member of the Iron Works Union in 
Boston.
    Chairman Issa. I ask unanimous consent the man be given an 
additional 30 seconds to explain his entire family lineage. 
[Laughter.]
    Mr. Lynch. Well, we will skip that. That is for another 
hearing.
    But I am also a former union steward, former union 
president for the Iron Workers Union, actually worked at the 
UAW plant in Framingham, Massachusetts.
    Mr. Bowman. Welcome, brother.
    Mr. Lynch. So Mr. Bowman, I certainly have some related 
experience with respect to your testimony.
    And Ms. Coomer, the SEIU actually ran a candidate against 
me in the last election. So we certainly have some empathy 
going there, in spite of the fact that I had a very, very 
strong union voting record, as you might expect. Even when I 
was president of the Iron Workers Union, I still strapped on a 
pair of work boots every day and went out to the 
constructionsites. So I wasn't a sit behind the desk president, 
I was an iron worker, working on the job, driving a pickup 
truck. And in a very dangerous industry, I might add.
    And I was thankful every single day that I went to work 
that I had a union watching out for me. Because as a union 
steward and a union president, I had more than enough occasions 
to sit in an emergency room waiting for one of my co-workers to 
get patched up or unfortunately, I went to far too many wakes 
and funerals for my brothers and sisters who went out to work 
in the morning in a very dangerous industry and did not come 
home. And that is a strange, strange, it is bizarre, it is 
obscene in a way, that folks go to work every day sometimes in 
dangerous industries, and because of the lack of protections, 
they don't come home.
    That is one of the greatest gifts, I think, that my union 
gave to me, was, they tried their best, in a very dangerous 
industry, to make that job safe for me, so I could come home 
every day to my family.
    I just want to make a few observations. You would think 
from the discussion here today that maybe 50 percent, 60 
percent, 70 percent of today's workers are unionized. But 
according to the Bureau of Labor Statistics, 88 percent of the 
workers who draw a salary or a wage in this country today are 
non-union. You have 11.8 percent of the workers, salaried 
workers and wage-earners in this country, 11.8 percent work 
under a collective bargaining agreement.
    In fairness, this committee has really tilted toward going 
after union employees. This has not been an even-handed 
process.
    I have before me a list of 16 hearings we have had here. We 
have had probably, out of the 16, we have had hearings on 
questioning the pay levels of Federal employees, looking at 
right-sizing the Federal work force, trying to get people out 
the door, questioning, we had a hearing questioning the 
official time whether union stewards in conducting their 
business, whether that was a good value for the taxpayer.
    We had a hearing entitled Postal Infrastructure: How Much 
Can We Afford, Are Postal Work Force Costs Sustainable, because 
we wanted to cut the postal workers, union workers wages. We 
had a hearing on the Hatch Act, whether or not political action 
by public workers should be sustained.
    Chairman Issa. Would the gentleman yield?
    Mr. Lynch. Not at this point, no, I only have 5 minutes.
    So we have had--and I don't believe, I honestly don't 
believe that the employers, the corporations, are going to be 
brought in here. I don't believe that. We have had 16 hearings 
on employees, and busting unions. And we have never had a 
hearing on, you know, don't hold your breath to see Goldman 
Sachs come through that door. Because in all the time I have 
been here, this House, the whole House of Representatives, 
think about Goldman Sachs, and what role they played in this 
country's economic crisis. Never came through that door, not 
one hearing on Goldman Sachs. And yet we go after the unions on 
a weekly basis here.
    The other thing is, the last thing I want to say is about 
Citizens United decision. Terrible decision, probably the worst 
decision in my lifetime in the Supreme Court. And they equate 
corporations with unions. The difference with corporations and 
unions is that even in your case, the union's ability to garner 
resources is limited to passing the hat. They pass the hat 
among the employees, sometimes willingly, sometimes 
unwillingly, getting contributions, individual contributions.
    But if you look on the corporate side of things, you have 
ExxonMobil making $30 billion, AT&T making $20 billion, Chevron 
making $20 billion, JP Morgan $17 billion, Wal-Mart making $16 
billion, and they can take that money without shareholder 
approval, without disclosure to the shareholders, and use that 
money for political purposes. They can use the machinery of 
profit-making, these corporations, these massive corporations, 
with impunity. There are no questions being asked of them.
    I appreciate your indulgence, Mr. Chairman, and I yield 
back.
    Chairman Issa. I thank the gentleman for yielding back his 
negative 50 seconds.
    I might note for the record that Mr. Waxman was very good 
at holding Hatch Act hearings and you did forget to mention 
Governor Scott Walker, who is in fact an employer.
    And with that, we go to the gentleman from South Carolina, 
once an employer, I guess, of many of the members of his 
district attorney's office, recognized for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    I couldn't help but think when Secretary Geithner from the 
Treasury came that we had a glimpse of Wall Street, so I don't 
know whether the gentleman is counting that as a Goldman Sachs 
visit or not.
    Ms. Waites, you went through, and I tried to take notes, 
you went through an incident that happened with respect to the 
Children's Fund and what strikes me as tantamount to an 
involuntary contribution. Could you go back, just take 30 
seconds and go back through that factual predicate for us one 
more time? What happened?
    Ms. Waites. In 2004, when I went to the delegate assembly, 
we were told right off that it was non-negotiable, we had to 
make a donation to the Children's Fund in two separate fund 
that amounted $180. Which I finally did, and I procrastinated, 
because I couldn't figure out why it had to be two different 
payments, and I couldn't figure out why it wasn't tax-
deductible. But the name is the Children's Fund, it is the fund 
for children in public education. So you assume it is for 
children in public education.
    Mr. Gowdy. Who in the world could possibly be opposed to 
something called the Children's Fund?
    Ms. Waites. If you ask a teacher to give money, a teacher 
may have two dollars in her purse and if you ask for that two 
dollars, that teacher is going to give a child the money. That 
is just what we do.
    Mr. Gowdy. Are you familiar with the work of the Children's 
Fund?
    Ms. Waites. I was not until the last day of the assembly, 
when they announced that the money that had been raised through 
the Children's Fund would go to the campaign. In 2004 it was 
John Kerry, in 2008 it was Obama. And that was the very last 
day.
    Now, I found out what the nature of the Children's fund was 
in the women's bathroom on a break when two ladies from 
California told me. I asked them if they were required to give, 
because everyone, you were very pressured into donating. And 
they said no, it was a political fund, and that is how I 
originally found out about it, was from some other lady.
    Mr. Gowdy. We may have a clip, Mr. Chairman, of an ad run 
by the Children's Fund. Let's see if we have one here.
    [Video shown.]
    Mr. Gowdy. Wow. I didn't see a word about children or 
education.
    Ms. Waites. Yes, if you are going to have a political fund, 
name it a political fund, especially when you are in an 
education field. People will give to children for any type of 
education purpose. I speculated, NEA gives teacher grants, and 
I originally thought, okay, maybe it will go to teacher grants. 
And then I thought, well, maybe it will go to underprivileged 
children or children in high poverty areas. And Children's Fund 
is a children's fund, it shouldn't be a political fund.
    Mr. Gowdy. And you didn't know it was going to go for an 
attack ad in a partisan race?
    Ms. Waites. No, sir.
    Mr. Gowdy. Now, something in your original opening 
statement led me to believe that there was not only a component 
of involuntariness to it, but that there was perhaps some 
shenanigans with travel money?
    Ms. Waites. They took dues from BCEA members and they 
included the amount of the donation in 2008 into our travel 
money. Because when I kept insisting to have the money back, I 
was told to stop insisting because the amount was included in 
my travel money that was separate from my travel money. Which 
infuriated me even more, they used our BCEA dues to contribute.
    Mr. Gowdy. Professor Dau-Schmidt, I was just a country 
prosecutor, I never got into FEC law. Is that legal, what she 
just described?
    Mr. Dau-Schmidt. I am a labor and employment law professor.
    Mr. Gowdy. Oh, but you have an idea, don't you?
    Mr. Dau-Schmidt. Well, I would give you my opinion that I 
find that disturbing, too, frankly.
    Mr. Gowdy. I didn't ask whether you found it disturbing, I 
asked whether you found it legal or not.
    Mr. Dau-Schmidt. That I don't have an opinion on. I don't 
know, I don't know that law. As I understand, she did file a 
complaint that was denied. She is a State employee, so she is 
governed by State law, so I can't tell you what the State law 
is on her objecting. But I think she has a legitimate complaint 
there, that if they put forward that fund in that way that she 
should expect it to go for, it should be clear whether it is 
for politics or not.
    I suppose they could make the argument that this guy was 
against children somehow, and so therefore, this was the best 
way to use that money. But I think she has a legitimate 
complaint, and I would be interested to see why her complaint 
was dismissed.
    Mr. Gowdy. I am afraid I am out of time, Mr. Chairman.
    Chairman Issa. The gentleman is correct, his time is 
expired.
    We now go to the gentleman from Illinois, Mr. Davis, who is 
next for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    While I can't say that my work was as dangerous as that of 
Mr. Lynch, I can say that I was a proud union delegate, member 
of the Chicago Teachers Union, chairman of the Professional 
Problems Committee during the early days of my life, when I was 
about 23 years old. And I enjoyed the work tremendously.
    I think that those of us who are concerned with unions' 
political advocacy should also take a good look at corporate 
America. According to the Center for Responsive Politics, the 
Chamber of Commerce, which is funded by corporate America, is 
one of the top sources for political spending. Harvard law 
Professor Benjamin Sachs commented on the Chamber's spending in 
a 2012 paper. He noted that the Chamber, which is funded by 
corporate donations, spent more than $32 million on 
electioneering communications during the 2010 election season, 
approximately 94 percent of which was on behalf of Republican 
candidates.
    Professor Dau-Schmidt, now that corporations are free to 
use their general treasuries to fund political activities, 
would you agree that corporations have the financial capability 
to vastly outmatch that of individuals and unions?
    Mr. Dau-Schmidt. I think that is true, and I think that is 
evident in the upcoming election. The statistics that you cited 
from Professor Sachs' article and the five highest spending 
non-priority organizations, including the Chamber of Commerce, 
$32 million in the 2010 elections, four of the five all 
supported Republican candidates.
    Mr. Davis. I have always believed that fair is fair. 
Unfortunately, it is difficult to get a handle on what the 
actual scope of corporate political influence really is. While 
there are a lot of checks on union political spending, there 
don't appear to be any real checks on corporate America.
    Federal law requires unions to file a detailed report with 
the Department of Labor, disclosing all of their political 
spending. Professor, do have corporations any similar duty that 
you are aware of to disclose their spending for political 
purposes to their shareholders or to the public?
    Mr. Dau-Schmidt. I know of no restraints like that, and 
they also don't have to let people opt out. And just think 
about how popular that would be. If you did allow an opt-out, 
they would have to refund a portion, a proportionate share of 
what they spend on politics to their shareholders. They would 
set up mutual funds that got these refunds, they would be 
dissenter mutual funds. Those mutual funds would earn more 
money than similarly situated mutual funds. They would be very 
popular.
    So I think there is a real demand out there for dissenters 
not to have their money. My savings for my pension spent on 
political purposes that I oppose.
    Mr. Davis. Thank you very much. And I think the Los Angeles 
Times article pretty much came to the same conclusion. And it 
said that ``Despite mounting calls for greater transparency, 
only a few of the country's 75 leading energy, health care and 
financial services corporations fully disclose political 
spending. Groups such as the Chamber, some of which spend 
millions of dollars on elections, are not required to reveal 
their financial supporters. And companies are not required to 
report their donations to those groups.''
    ``What information is publicly available suggests that 
substantial Corporate political spending remains in the dark, 
leading to an incomplete and at times misleading picture of 
companies' efforts to influence legislation and elections.''
    Professor, given the lack of transparency and disclosure 
policies and practices of some corporations, do we even know 
how corporations are spending shareholder funds to exercise 
political influence?
    Mr. Dau-Schmidt. I don't believe we do.
    Mr. Davis. Well, thank you very much. I think it is clear 
that there is great disparity between what unions and 
individuals are able to spend and what corporate America is 
able to spend to influence. I thank you, Mr. Chairman, and 
yield back the balance of my time.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Michigan, Mr. Walberg, who 
also hails from an area to the south of Ypsilanti. Do you 
include any part of Ann Arbor and Ypsilanti?
    Mr. Walberg. Well, we don't include Ann Arbor as Ypsilanti.
    Chairman Issa. I always look at them as the twin cities.
    Mr. Walberg. I have a quarter of Ann Arbor in my district.
    Chairman Issa. You do. Mr. Bowman would like to talk to 
you. The gentleman is recognized.
    Mr. Walberg. I have hade the privilege of walking in the 
Saline Parade with Mr. Bowman, if I remember correctly.
    Mr. Bowman. That is correct.
    Mr. Walberg. Who surprised me out of my socks, as it were, 
that you were a proud UAW member working for a Republican 
candidate.
    Mr. Bowman. That is correct.
    Mr. Walberg. And it was a delight t talk with you, and I 
have tried to matriculate that information into my 
understanding since then.
    Mr. Bowman. I would like to talk to you after this meeting.
    Mr. Walberg. Delighted to see you here and appreciate your 
testimony.
    I apologize for not being here for all the other 
testimonies. I have had a chance during the intervening time to 
read them. Members of Congress are not unionized, so our work 
rules don't allow us necessarily to deal with being in two 
places at the same time and often we have that situation.
    I was a United Steelworker for a while in my life at Number 
Two Electric Furnace, South Works, U.S. Steel, south side of 
Chicago, same place my dad was a union worker and helped 
organize the union at that plant early in his career in the 
early 1940's. The opportunity that he proudly wore his union 
pin, those little pins they used to wear, attached to his lunch 
bucket as well as his hat and his coat, and would come home 
with those. By the time he finished his career as a machinist 
tool and diemaker, he no longer was a member of the union, 
worked for companies and shops that weren't unionized, because 
he felt it went away.
    An example was given even in my first week at U.S. Steel 
South Works when I was told by the Union to stop working so 
hard, quit sweeping underneath the furnace so hard and find a 
box and crawl up and go to sleep. I understood that was not the 
work rules and the working condition that my dad worked for, to 
make sure that there was safety, that you did come home for a 
weekend of relaxation. I was interested to hear the statement, 
this weekend brought to you by the labor union.
    Ms. Coomer, I am sure that they would not go along with a 
statement that could be made, you too can be a union caregiver 
for your child, like it or not. I am sure that would not be the 
situation that you would desire to see as an ad. I applaud you 
for what you are doing for your child. And sadly, some of that 
opportunity has been taken away from you as a result of a 
union.
    But let me go back to Mr. Bowman. I have heard with some 
reverence talk about the Black Lake Facility. Describe that a 
little bit more. You mentioned it in your testimony, but 
describe that facility and why a lot of my union friends would 
talk with some reverence as to what goes on there. What does 
take place there?
    Mr. Bowman. Well, the UAW has a facility called the Black 
Lake Facility in the upper Lower Peninsula of Michigan, almost 
to the Mackinaw Bridge, as a matter of fact.
    Mr. Walberg. Beautiful area.
    Mr. Bowman. Beautiful grounds, it has an 18 hole golf 
course, quite highly rated, from what I understand, all owned 
by the union, all paid for with regular union dues. They did 
this as an investment and from what I understand, they have 
been trying to sell it but have chosen not to do that because 
of the deduction, or the loss of property value.
    But at the Black Lake facility, it is supposed to be a 
facility for ``education.'' And I use this quote mark because I 
have never been afforded, even after 15 years, of going to the 
Black Lake facility. Only those who are very involved in the 
union political side are invited to go to the Black Lake 
facility numerous times. And they have classes there, 1-week 
seminars on grievance handling and the history of unions and 
all these different kinds of classes that are available.
    Mr. Walberg. Upgrading your skills as an employee and all 
that?
    Mr. Bowman. That is correct. But unfortunately, as I have 
been told numerous times, people come back and say that it 
really is an opportunity for the union to indoctrinate on the 
fact that the Republican party has been the party who has over 
time done everything against the middle class, against the 
working people.
    Mr. Walberg. They would actually say that?
    Mr. Bowman. They would actually use those words, yes, 
absolutely.
    Mr. Walberg. With your dues dollars paying for that?
    Mr. Bowman. Regular dues are paid for this facility. It is 
not subtracted from the agency fee, as is any of the 
publications or the salaries of the officials that engage in 
these activities.
    Mr. Walberg. Is there a publication that your dues help 
fund called Solidarity?
    Mr. Bowman. Yes, there is.
    Mr. Walberg. Are there any political statements in 
Solidarity that you would have concerns with as a union 
employee?
    Mr. Bowman. Extremely. Yes. Very often in every issue.
    Mr. Walberg. So your forced dues pay for Solidarity 
printing, against your viewpoints and a thousand others 
potentially that you have listed today?
    Chairman Issa. Time is expired, the gentleman may answer.
    Mr. Bowman. Yes. And unfortunately Solidarity magazine, the 
publication and the wages for the union workers who put this 
together are not reduced from the agency fee. They consider 
that legitimate union purpose.
    Chairman Issa. I thank the gentleman.
    The gentleman from Massachusetts, Mr. Tierney, is 
recognized for 5 minutes.
    Mr. Tierney. Thank you.
    Doctor, let me start here. I think in this hearing we want 
to make sure that individual union members are not being 
disadvantaged inappropriately, that their rights are being 
protected. So I want to just walk through, again, the National 
Labor Relations Act allows for people to organize, form a union 
and to collectively bargain, is that correct?
    Mr. Dau-Schmidt. Yes.
    Mr. Tierney. And then a later amendment, I think it was 
about 1947, indicated that States had the right to opt to be 
right to work States.
    Mr. Dau-Schmidt. Right.
    Mr. Tierney. Then there was case law that indicates if that 
occurs, and a contract provision is put in, people that do not 
want to be paying union dues can at least make sure that if 
they are obligated to pay those union dues, none of it goes 
toward political uses, is that correct?
    Mr. Dau-Schmidt. That is true. The statement actually uses 
the term membership. It allows union security agreements that 
require membership. But the way the Supreme Court has 
interpreted that is that you can't actually require someone to 
join a union, and you can only require them to pay an agency 
fee.
    Mr. Tierney. So if that law is in fact enforced, then I 
think that we have pretty much protected those individuals from 
what they would otherwise object. The question for some of 
these folks here might be whether or not it was enforced 
properly or applied properly in their position. I think that is 
a case by case. I do note on Ms. Waites that when her case went 
to the FEC, it sort of was resolved, because it seemed to be a 
misunderstanding between Ms. Waites, Ms. Fox and Ms. Hunter.
    And you never did voluntarily, Ms. Waites, want your money 
to be used for the political purpose. You knew, I guess from 
the document that went out that day, you knew the NEA Fund for 
Children in Public Education had those uses that it had, and 
you didn't want your money to go there, and somebody else put 
some travel money that you had toward it. So that is that 
issue, right? Okay.
    So feeling fairly comfortable that the law allows for 
protection against what everybody here seems to want to 
complain about it, let me take it to a broader point, Doctor. I 
think most of us want a fair political system and we wouldn't 
want anybody to be over-advantaged against anybody else. When 
you look at the Citizens United case, and you understand the 
impact, I think it is Jacob Hacker, a friend from Yale, who 
said in this case, first, people with a lot of money, they had 
the advantage, they could hire lobbyists, then they could give 
a lot more in political contributions than the average citizen, 
regular family.
    And now, and this is Citizens United, they are going to be 
able to buy attitude and spend all they want. Sometimes their 
shareholders might even in fact be pension funds or other 
organizations that are populated by people who, some of the 
policies the corporations espouse, they work against. Is that 
fair?
    Mr. Dau-Schmidt. That is absolutely correct. And I have to 
admit, I am very concerned about it, for the future of our 
country and for my kids' future.
    Mr. Tierney. I, in fair disclosure, everybody wants 
disclosure, I was the president of the chamber of commerce in 
my community. But we disassociated ourselves from the U.S. 
Chamber of Commerce that we regularly saw working against our 
interests, always championing tax loopholes and things that 
favor corporations, taking jobs overseas and on and on and on. 
And not doing things that we really thought in our local 
communities would be helpful, supporting education, supporting 
better roads and things of that nature.
    And always generally saw union members and other people 
that were working non-management, and small businesses, have a 
lot in common on that basis. I think one thing they have in 
common is that Citizens United, the way it is crafted right 
now, could work greatly to their disadvantage on that.
    Mr. Dau-Schmidt. I believe that is true.
    Mr. Tierney. Do you believe it would be useful to have a 
law that allowed for the same kind of protections for 
shareholders that the law currently allows for union members or 
non-union members who have to pay an agency fee?
    Mr. Dau-Schmidt. I think it would be very useful. As I said 
before, I think to opt out would be very popular with 
investors. I don't invest in a company because I want them to 
represent my political views. I invest in a company because I 
want a secure return in the future. And that is what people 
expect to get out of investment. So when the Supreme Court 
politicized that act through Citizens United, they created a 
huge problem. They created a problem not only in private 
relationships, where employers set up pensions, but especially 
in a relationship like mine, where the State sets up a pension 
and requires me to participate in it. Because there you have 
clear State compulsion for me to participate in what is 
basically political voice.
    Mr. Tierney. Mr. Bowman, would you favor or oppose laws 
that applied the same protections to shareholders that are 
available to employees?
    Mr. Bowman. I think it is comparing apples to oranges, 
because shareholders can choose not to invest in the company. 
Union workers have to as a condition of employment pay dues to 
the union.
    Mr. Tierney. That is not true in a right to work State, is 
it?
    Mr. Bowman. It is not true in a right to work State.
    Mr. Tierney. They can voluntarily opt out.
    Mr. Bowman. Yes, they can.
    Mr. Tierney. So if you are a shareholder, you have money in 
a mutual fund, how likely do you think it is that you know 
exactly where those funds are being invested, and then what 
that corporation is doing with your money?
    Mr. Bowman. I think it is due diligence. They need to find 
out exactly where, and then they can choose to invest 
elsewhere.
    Mr. Tierney. As I guess you think Ms. Waites should have 
done.
    Mr. Bowman. I don't know that situation.
    Mr. Tierney. Yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Oklahoma, Mr. Lankford, for 
5 minutes.
    Mr. Lankford. Thank you, Mr. Chairman. This is an 
interesting series of conversations about the agency fees and 
opting out and such, and providing those types of protections. 
I understand the statement that we have laws on the books that 
handle this.
    Of the individuals that are here, do you think these Beck 
rights, these opt-out provisions were enough for you in your 
specific situation? Were you able to opt out and to say, Ms. 
Waites, you can start and we can go across the panel.
    Ms. Waites. I was not able to opt out. When I asked that 
the money be returned, I was refused.
    Mr. Lankford. Okay, so these specific opt-out provisions 
did not work for you?
    Ms. Waites. Right.
    Mr. Lankford. Okay, thank you. Ms. Coomer.
    Ms. Coomer. When I made the request, basically I was told 
that to be a ``non-member union person'' I still had to pay the 
equivalent fees, equal to the union dues. Then I had to go 
through this big, long process. It had to be a religious reason 
that I had to prove that I wanted to divert a certain portion 
to a non-profit or a different organization, that the union 
agreed to allow me to donate or divert that money to.
    Mr. Lankford. So a fairly lengthy process to do that, 
fairly bulky process?
    Ms. Coomer. Right.
    Mr. Lankford. And you still had to pay the agency fee?
    Ms. Coomer. Still had to pay, yes.
    Mr. Lankford. So if you want to just personally donate to 
somebody else and say, I am not going to pay the agency dues, 
don't put any of my money down for political, I want to 
personally contribute to who I want to contribute to, that is 
not a possibility. So somewhere in your agency fees was going 
to be contributions directed through the union.
    Ms. Coomer. Right. And then they want quarterly reports, 
showing, I had to prove to them that that portion I diverted 
was going to where they had agreed was an appropriate place for 
it to go to.
    Mr. Lankford. Okay.
    Mr. Dau-Schmidt. As I mentioned before, I believe both Ms. 
Waites and Ms. Coomer are public employees, and as a result, 
they would be governed by the law in their States. Actually the 
law, they would have an opt-out, they wouldn't be eligible for 
Beck rights. But they would be eligible for some kind of opt-
out from the law in the States.
    And Ms. Coomer, I am not familiar with Washington's law. 
But it sound very interesting where they allow them to opt out, 
but they have to give to a charity of their choice, so as not 
to encourage people to opt out. In other words, they still have 
to support the public wheel in some way. Now, Mr. Bowman----
    Mr. Lankford. Wait. I am going to let Mr. Bowman answer.
    Mr. Dau-Schmidt. Well, Mr. Bowman----
    Mr. Lankford. Hold on.
    Mr. Dau-Schmidt [continuing]. Is eligible but he has to----
    Chairman Issa. The gentleman controls his own time. Go 
ahead, Mr. Lankford.
    Mr. Lankford. The statement that I am making is, were the 
Beck rights, did they apply. And your statement is, no, this is 
a State issue, so they don't apply on it. Mr. Bowman, you can 
answer the question.
    Mr. Dau-Schmidt. For State employees, I am not eligible for 
Beck, either, because I am a State employee.
    Ms. Coomer. I am not a State employee, according to the 
State of Washington.
    Mr. Lankford. Mr. Bowman.
    Mr. Bowman. Okay, thank you. First of all, I have not 
exercised my Beck rights, because I am trying to effect change 
while as a member, an active member of the union. And my 
testimony says there is a lot of fear that goes in with union 
members by exercising their Beck rights. Specifically because 
they have to resign their union membership first. And when you 
are on the shop floor and people know that you have exercised 
your rights, there is harassment, there is persecution, there 
is ridicule from your fellow workers, along with the union 
officials themselves.
    Now, I think that alone speaks very highly of making the 
Beck decision the default position for all union workers up 
front, and then only those who want to pay over and above can 
choose to do so.
    Mr. Lankford. Right. And there are individuals, yourself 
included, that want to stay involved in the union. I have some 
folks in Oklahoma City, in Oklahoma, we are a right to work 
State. There are some fantastic people that are union members, 
who are very engaged, whether they be firefighters or police 
officers or all kinds of different unions there, I have no 
issue with that, and for the collective bargaining, for the 
organization, and for what they want to be able to do, to be 
able to negotiate together. That is not the issue.
    The issue comes down to the accountability side of it. An 
example of this would be the ICAP audits, to where audits are 
done by the Federal Government, of going down to the 
communities, the local side. But as of 2012, according to the 
Obama administration, they are going to do zero audits for the 
international unions. Does that bother anyone, that the new 
decision is, if they are a small union in a local area, they 
are going to have transparency, but the larger the union is, 
the less transparency they are going to have?
    Mr. Bowman. I think that is incredible. I had not heard 
that. I find it quite upsetting.
    Mr. Lankford. That is from the Office of Labor Management 
Standards, just to say that for fiscal year 2012, the quote 
there is, if you get a chance to read it, there will be zero 
ICAP audits. So that office has been defunded and put down on 
it.
    So the issue here is not whether you want to be union or 
non-union. That should be completely voluntary. But it should 
also be transparent. Everything should be open, everyone should 
be held to the same account. And there should be the 
opportunity for members of the union to also be engaged, and to 
not be excluded from that.
    With that, I would yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Connecticut, Mr. Murphy, 
for 5 minutes.
    Mr. Murphy. Thank you very much, Mr. Chairman.
    In Mr. Bowman's testimony, he suggests that the political 
speech of unions is essentially equated to what he calls an 
offensive and radical left-wing political action. We are used 
to hyperbole here, but this is certainly parroted by much of 
the talk we hear about what unions are doing in the political 
context today. I think it stands behind a lot of the attacks we 
have seen on labor unions, this idea that labor unions are 
speaking in some radical way.
    And Mr. Kucinich did a little bit of this, but I do think 
it is important to in some detailed way go back over the record 
of the political action of labor. I won't claim that labor has 
been responsible for every great social or workplace safety 
advancement in this Nation. But they have been a pretty 
integral pat. There was a time when there were little kids 
working in factories throughout this country, there was a time 
when the average adult was working 61 hours a week. And in 
large part because of union political action, we passed the 
Fair Labor Standards Act. There was a time in this country 
where workers were getting paid cents on the hour, weren't 
getting paid enough to put a roof over their head or food on 
the table. And in large part because of labor political action, 
we got the minimum wage.
    There was a time when if you got injured at work, you would 
lose your job, and the only way that you could recover any 
damages or any lost wages was by suing your employer and 
racking up expensive legal fees. In part because of labor 
political action, we got workers compensation law.
    And a lot fo people say, that is prior history, that is all 
about what happened 50 years ago, 75 years ago. Well, just 
about a decade ago, it wasn't foreign that if you had a newborn 
child or a sick relative, and you had to take some time off 
work, you couldn't get your job back. And in large part because 
of labor political action, we got the Family and Medical Leave 
Act.
    You can disagree with all those things. You can say that we 
shouldn't have minimum wage, we shouldn't have the Family 
Medical Leave Act. But I don't think that any of those acts are 
considered radical today. I don't think that much of what labor 
is advocating for is considered extreme today. And I guess it 
leads me to a few simple questions to the professor. We have 
heard a lot about the free rider phenomenon, in the sense that 
if you are not paying dues in a right to work State, you still 
get the benefit of the contract that the labor union 
negotiated. And I think that is a real problem.
    But what we don't talk a lot about is the free rider 
syndrome in which workers who aren't paying dues to a labor 
union also get the benefit of all of the social change, the 
very non-extreme advocacy that has led to these acts. And so 
Professor, my question is this. Do non-paying dues members in 
this country get the protections afforded to them under the 
Fair Labor Standards Act?
    Mr. Dau-Schmidt. Yes, they do.
    Mr. Murphy. Do non-dues paying members in this country get 
the protections afforded to them by Federal minimum wage?
    Mr. Dau-Schmidt. Yes.
    Mr. Murphy. How about workers compensation law?
    Mr. Dau-Schmidt. Yes.
    Mr. Murphy. And the Family Medical Leave Act?
    Mr. Dau-Schmidt. Yes.
    Mr. Murphy. Listen, we can disagree about the particular 
actions that labor unions engage in in the political context. 
That is why we have the protections that allow individual 
workers to opt out. I think folks on our side have done a 
pretty good job of explaining those protections. But the notion 
that there is some radical agenda that labor is perpetuating in 
the halls of Congress or in State legislatures I don't think is 
backed up by the facts. I think the idea that going back 
through the history of social change in this country that we 
haven't been benefited, workers haven't been benefited, whether 
you are a dues-paying member of a union or not, by fair labor 
standards, minimum wage, workers compensation, medical and 
family leave and dozens of other pieces of legislation is a 
rewrite of what has actually been happening when labor unions 
come and advocate on behalf of their Members in the U.S. 
Congress.
    With that, I yield back my time.
    Chairman Issa. The gentleman yields back.
    With that, we go to the gentleman from North Carolina, Mr. 
McHenry, for 5 minutes.
    Mr. McHenry. I thank the chairman. And I know this is not 
about a question of right to work laws in individual States. 
This hearing is not about that. But I want to thank my 
colleagues on the other side of the aisle for their advocacy 
against right to work laws in their respective States. I want 
to thank them for that, because in North Carolina, as a right 
to work State, it helps us economically. I certainly appreciate 
their willingness to advocate for closed shops for unions. I 
certainly appreciate their willingness to advocate for laws 
that drive up the cost of doing business in their respective 
States, and I certainly appreciate their advocacy for that.
    So I just want to take a moment to sincerely thank them, 
not just on my behalf, but on behalf of the folks in western 
North Carolina that want more jobs and want more economic 
growth.
    Now, we did hear a lot of testimony about labor practices 
in the 1920's. We had a lot of questions and comments about 
that. And certainly, unions had their place and they had their 
time. But we also have international competitiveness issues. 
And we have unions that are negotiating to keep their dues and 
to keep their income stream going, while at the same time 
cutting employees, cutting pensions, raising the cost of health 
care for their union members. So their advocacy is, let's just 
say they are trying to keep their money flowing to them.
    But that is neither here nor there. So one of my colleagues 
said that basically the unions pass the hat. They pass the hat 
to get union membership. Mr. Bowman, do you put your dues in a 
hat or is it deducted from your paycheck?
    Mr. Bowman. It is deducted from my paycheck.
    Mr. McHenry. Ms. Coomer.
    Ms. Coomer. It is deducted from the paycheck.
    Ms. Waites. It is deducted from my paycheck.
    Mr. McHenry. I just want to be clear about that.
    Now, is there any question about how your dues are divvied 
up? Do you have a vote on that, Ms. Waites?
    Ms. Waites. No, sir, we do not.
    Ms. Coomer. No.
    Mr. Bowman. No, sir.
    Mr. McHenry. All right. This is interesting to me. Ms. 
Coomer, I appreciate your testimony, and for making the trip 
here. How old is your daughter?
    Ms. Coomer. Twenty-one.
    Mr. McHenry. In your testimony you outline the fact that 
you basically are being paid by the State to be, or your are 
paid by the State to take care of your daughter.
    Ms. Coomer. Right.
    Mr. McHenry. If you didn't do that, some other individual 
would do that?
    Ms. Coomer. Would need to do that, yes.
    Mr. McHenry. So you got a notice when this happened, I 
mean, this is a State regulation, a State law, in the construct 
of how you are taking care of your daughter?
    Ms. Coomer. Actually, she got the notice.
    Mr. McHenry. Oh, she got the notice.
    Ms. Coomer. That her family provider could no longer 
provide care for her through an agency, that they had to 
transfer over to the unionized IP system if they wanted to 
continue providing care.
    Mr. McHenry. Okay. And so could you have said, no thank 
you, I don't want to be a member of the union?
    Ms. Coomer. I could have refused to sign up as an 
individual provider, yes, and then I would not have been able 
to continue providing for her Medicaid Personal Care.
    Mr. McHenry. So you would not be able to take care of your 
daughter?
    Ms. Coomer. Right.
    Mr. McHenry. That is a horrible choice. And I am sorry.
    Ms. Coomer. Exactly. And I don't know a parent who made the 
decision not to make that move, because of that very reason.
    Mr. McHenry. So not only do you not have a choice about 
being a member of the union, you don't have a choice about 
where those dues even go?
    Ms. Coomer. Correct.
    Mr. McHenry. This is really the crux of this discussion 
today. You are being forced, money is being taken out of your 
pocket.
    Now, there is a comparison to corporations. With a 
corporation, if you are an investor, you can simply not invest, 
right? I guess conceptually, you don't have to take care of 
your daughter.
    Ms. Coomer. I suppose.
    Mr. McHenry. But it is an illegitimate choice set here, a 
comparison between investing in a corporation and an individual 
providing care for their child.
    Now, I just wanted to make that point here. My colleague 
from South Carolina always asks great questions. I know I only 
have a few additional seconds.
    Chairman Issa. Would the gentleman yield?
    Mr. McHenry. I would be happy to yield to the chairman.
    Chairman Issa. Just one question. Did you get a pay 
increase when you were involuntarily converted in status and 
put into the union?
    Ms. Coomer. No.
    Chairman Issa. Did you get a pay decrease by having the 
same amount of money but less of it net?
    Ms. Coomer. Right. I got a pay decrease, decreased 
benefits, and I was no longer able to cover my children, my 
dependents, on the health insurance coverage.
    Chairman Issa. So because of the union's political 
activism, they able to take you from being out of the union, 
receiving X dollars to take care of your adult child, to put 
you into a union where you got less net dollars to do that 
service, but they got dues. That was the only change you saw?
    Ms. Coomer. Correct, other than some of the decreases in 
benefits and not being able to cover my other children, 
dependents. They have no dependent coverage, which I had 
before, when I was not a union member.
    Chairman Issa. If I wasn't a Member of Congress, I would 
say you got you know what out of this. But I am not going to go 
there.
    I thank the gentleman for yielding. I yield back.
    And the gentleman's time is now expired. We now go to the 
former chairman of the full committee, the Honorable Edolphus 
Towns, for his insightful questions.
    Mr. Towns. Thank you very much, Mr. Chairman. You sound 
like my mother. [Laughter.]
    Chairman Issa. God bless her for bringing you to us.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me begin by first of all, I have a statement for the 
record, I ask unanimous consent, of Mr. Robert Hahn, member of 
Local 514 of Wisconsin. I would like to ask permission to 
insert it into the record.
    Chairman Issa. Without objection, so ordered.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me say, just yesterday, less than 24 hour ago, this 
committee conducted a business meeting in which our objective 
was to take money out of the pockets of Federal workers to 
reduce the national deficit. There was no, let me emphasize, no 
efforts, no efforts whatsoever, to get corporations to shoulder 
the same burden.
    Today, despite its title, this hearing again focuses on the 
worker, except that now we are looking to put further 
restrictions on the rights of those workers who are unionized 
and who are working hard to live the American dream. All over 
this country, and of course right here in the capital, we are 
witnessing a sustained campaign against American workers and 
the unions who represent them. These campaigns are aimed at 
silencing the voices of unions and giving more power to the big 
corporations over things like reasonable wages and benefits and 
safe working conditions.
    Let me begin by saying to you, Mr. Bowman and of course, 
Ms. Waites, do you feel there is an attack on the unions? Do 
you feel there is an attack on unions?
    Ms. Waites. No, sir. I don't feel that this is an attack on 
unions.
    Mr. Towns. But you don't feel there is an attack on unions 
in general, either?
    Ms. Waites. I think we are more in terms of unions making 
political contributions without any consult with their 
membership.
    Mr. Towns. How about you, Mr. Bowman?
    Mr. Bowman. I agree completely with what she is saying. 
This is not an attack on unions, on collective bargaining 
rights at all. It is a meeting to hear discussion on unions 
using our regular dues for political spending.
    Mr. Towns. Professor, do you want to say something?
    Mr. Dau-Schmidt. Living in one of the front line States, I 
would have to say there is a systematic attack on unions. My 
collective bargaining rights were taken away unilaterally by 
the Governor of Indiana in 2006, and then the Republicans in 
the State proceeded to limit collective bargaining rights for 
teachers, who were the only remaining public sector employees 
who have any collective bargaining rights at all. Once they 
were done with that, they moved on to right to work 
legislation, because that was the way they could weaken private 
sector unions.
    And this is all part, I think, of a political act on their 
part. They are trying to undermine people who have been 
traditional political opponents of theirs and supporters of the 
Democratic party. So it does not surprise me at all that most 
union campaign contributions go to Democratic candidates.
    In Indiana, I can guarantee you, the unions are very upset 
with the Republicans, because they have so tried to undermine 
union power. And in fact, there is an organization in Indiana 
called the Lunch Pail Republicans, who are conservative union 
members who generally do not support Democratic candidates, but 
they actively campaigned against the Governor and his position 
and right to work, and they are threatening to field candidates 
against all the Republicans who voted for right to work. And it 
looks like they are going to be fairly effective at it.
    So there are conservative union activists out there who are 
very upset with the attack that has been made on unions.
    Mr. Towns. Let me just say that I think you need to be 
careful. Because when you look at the improvements that have 
been made in the workplace, a lot of them came about because of 
unions. Even in situations where people were not even 
unionized, that based on the activity of the union that made 
the workplace safe.
    I think we need to sort of analyze that and look at it. 
Even if there is one thing that you dislike, let's look at the 
99 you should like. And of course, I can remember when people 
would work 60, 65 hours a week without any overtime. I am old 
enough to remember that. And of course, they just were paid by 
the hour and that was it, and paid very little.
    So I look at what is happening in corporate America. I 
think that we need to be really careful, and I think some of my 
colleagues on this side mentioned the fact that in terms of 
what is going on with corporate America.
    So I say to you, Mr. Bowman and Ms. Coomer and Ms. Waites, 
you need to be careful. You need to be careful. Because if not, 
you might come back a few years from now and start talking 
about how life is so miserable as a result of your not having 
that protection.
    I yield back.
    Chairman Issa. The gentleman yields back.
    I want to thank all our witnesses for being here today. 
This was the first of a series of hearings. As a result, you 
probably went through some of the growing pains that come with 
opening up a new subject. I would like to thank all four of 
you. I think you presented your positions extremely well.
    Certainly, you can tell that we are divided here on the 
dais. I think the important thing here today is that the issues 
you brought before us and any additional comments you may want 
to bring to the committee, I would ask that you try to do it in 
the next few days, we will include in the record.
    If there are no further comments by any of the panelists, I 
would ask unanimous consent that the committee majority staff 
report be placed in the record at this time. Without objection, 
so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 64029.055
    
    [GRAPHIC] [TIFF OMITTED] 64029.056
    
    [GRAPHIC] [TIFF OMITTED] 64029.057
    
    [GRAPHIC] [TIFF OMITTED] 64029.058
    
    [GRAPHIC] [TIFF OMITTED] 64029.059
    
    [GRAPHIC] [TIFF OMITTED] 64029.060
    
    [GRAPHIC] [TIFF OMITTED] 64029.061
    
    [GRAPHIC] [TIFF OMITTED] 64029.062
    
    [GRAPHIC] [TIFF OMITTED] 64029.063
    
    [GRAPHIC] [TIFF OMITTED] 64029.064
    
    [GRAPHIC] [TIFF OMITTED] 64029.065
    
    [GRAPHIC] [TIFF OMITTED] 64029.066
    
    [GRAPHIC] [TIFF OMITTED] 64029.067
    
    [GRAPHIC] [TIFF OMITTED] 64029.068
    
    [GRAPHIC] [TIFF OMITTED] 64029.069
    
    [GRAPHIC] [TIFF OMITTED] 64029.070
    
    [GRAPHIC] [TIFF OMITTED] 64029.071
    
    Chairman Issa. And again, thank you very much. You are an 
important part of democracy, all of you. This is a process in 
which we are going to look, as a committee, at the law as it 
has changed under the Citizens United decision, to try to find 
the right way to get openness and transparency and ultimately 
come to grips with the fact that the law is what the Supreme 
Court says it is.
    I want to thank you. We stand adjourned.
    [Whereupon, at 12:35 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Edolphus Towns follows:]
    [GRAPHIC] [TIFF OMITTED] 64029.072
    
    [GRAPHIC] [TIFF OMITTED] 64029.073
    
                                 <all>

</pre></body></html>
